<html>
<title> - U.S. NATIONAL SECURITY CHALLENGES AND ONGOING MILITARY OPERATIONS</title>
<body><pre>[Senate Hearing 114-687]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-687

   U.S. NATIONAL SECURITY CHALLENGES AND ONGOING MILITARY OPERATIONS

=======================================================================

                                HEARING

                               before the

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

         Printed for the use of the Committee on Armed Services






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.fdsys.gov/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-841 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   











                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman     JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
JEFF SESSIONS, Alabama               CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi         JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire          JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                 RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina          TIM KAINE, Virginia
DAN SULLIVAN, Alaska                 ANGUS S. KING, JR., Maine
MIKE LEE, Utah                       MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                   Christian D. Brose, Staff Director
              Elizabeth L. King, Minority Staff Director
             

                                  (ii)






                                C O N T E N T S

                                 ____________

                           September 22, 2016

                                                                   Page

U.S. National Security Challenges and Ongoing Military Operations     1

Carter, Honorable Ashton B., Secretary of Defense................     5
Dunford, General Joseph F., Jr., USMC, Chairman of the Joint         17
  Chiefs of Staff.

                                 (iii)

 
   U.S. NATIONAL SECURITY CHALLENGES AND ONGOING MILITARY OPERATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Cruz, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    Since a quorum is now present, I ask the committee to 
consider a list of 40 pending military nominations. Including 
in this list is the nomination of General John E. Hyten, U.S. 
Air Force, for Reappointment to the grade of General and to be 
Commander, United States Strategic Command. All of these 
nominations have been before the committee the required length 
of time.
    Is there a motion to favorably report these 40 million--40 
military nominations to the Senate?
    Senator Reed. So move.
    Chairman McCain. Is there a second?
    Senator Sessions. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. The motion carries.
    The Senate Armed Services Committee meets this morning to 
receive testimony on U.S. national security challenges and 
ongoing military operations.
    I'd like to welcome our witnesses, Secretary Carter and 
Secretary Dunford. Thank you for your service, and thank you to 
the men and women you lead and their families for their service 
and sacrifice during these challenging times.
    This committee has conducted regular hearings on U.S. 
national security strategy and ongoing military operations, and 
we have devoted special attention to the chaos engulfing the 
Middle East and the United States military campaign against 
ISIL [Islamic State of Iraq and the Levant]. It will be up to 
future historians to render a final judgment on this 
administration's stewardship of United States interests in the 
broader Middle East. But, in the opinion of this one Senator, 
it's been an unmitigated disaster. President Obama sought to 
pivot away from one of the most strategically vital regions of 
the world out of a misplaced hope that, ``the tide of war'' was 
receding and that we should focus on, ``nation-building at 
home.'' That withdrawal of United States power created a vacuum 
that was filled by all of the worst actors in the region: Sunni 
terrorist groups such as al Qaeda and ISIL, the Iranian regime 
and its proxies, and now Putin's Russia.
    Just consider, over the past eight years, this 
administration has overseen the collapse of regional order in 
the Middle East into a state of chaos where every country is 
either a battlefield for regional conflict, a party to that 
conflict, or both. The rise of ISIL and the threat it poses has 
made al Qaeda appear modest by comparison. But, both terrorist 
networks have expanded their influence from West Africa to 
South Asia and everything in between.
    The administration may have postponed Iran's nuclear 
programs, but this has come at the cost of unshackling Iranian 
power and ambition, both of which will grow in the coming years 
as billions of dollars in sanctions relief is transformed into 
advanced military capability and support for terrorism. Then 
there is Putin's Russia, which has reclaimed a position of 
influence in Middle East it has not enjoyed in four decades.
    The best that can be said about this devastating legacy is, 
over the past year, in part thanks to our witnesses today, 
President Obama has at least begun to unleash America's 
fighting men and women against ISIL. They are fighting with 
skill and encourage, despite enormous risks, as reports of 
ISIL's use of mustard agent against United States and Iraqi 
troops remind us. As a result, we are gradually eroding ISIL's 
territorial control in removing key personnel from the 
battlefield. This military campaign has too often been slow, 
reactive, and excessively micromanaged by the White House. 
Indeed, we read this morning of plans for yet another 
incremental increase of 500 troops in Iraq, one more step down 
the road of gradual escalation. But, thanks to the tremendous 
talent and dedication of our men and women in uniform, we are 
making progress.
    I have no doubt that ISIL will eventually be expelled from 
its strongholds in Mosul and Raqqa. The day of liberation will 
come later than it should have, but it will come. This will be 
a tactical success, but it is unlikely to lead to strategic 
gains, because the administration has failed to address, and at 
times exacerbated, the underlying conflict. The struggles for 
power and sectarian identity now raging across the Middle East, 
ISIL is merely a symptom of this deeper problem.
    In Iraq, Mosul may be retaken eventually, but that will 
only likely reignite the battle for the future of Iraq, a 
battle in which we have an important stake. The biggest 
problems still lie ahead: combating the malign influence of 
Iran and its militias, addressing the future of the Kurds and 
their place in Iraq, and attenuating the disenfranchisement of 
the Sunni Iraqis that gave rise to ISIL in the first place.
    Libya, we've had success in degrading ISIL's stronghold in 
Sirte, but what remains is a divided nation littered with 
independent militias, flooded with arms, and searching in vain 
for legitimate governance and political unity, conditions that 
will remain fertile grounds for extremism and anti-Western 
terrorism.
    We've also begun targeting ISIL in Afghanistan, but a 
resurgent Taliban, backed by Afghanistan's neighbors, continue 
to destabilize and terrorize the country while Afghan National 
Army casualties remain unsustainably high. It was in this 
environment that President Obama chose to withdraw another 
1,400 troops.
    Nowhere, however, is America's strategic drift clearer than 
in Syria. After more than 400,000 dead and half the population 
driven from their homes, after the worst refugee crisis in a 
century which now threatens the project of European unity, the 
administration still has no plausible vision of an end state 
for Syria. Instead, while Russian and Syrian regime aircraft 
bombed hospitals, markets, and aid warehouses, and other 
civilian targets, President Obama sent his intrepid, but 
delusional, Secretary of State to tilt yet again at the 
windmill of cooperating with Vladimir Putin, even committing to 
share intelligence with Russia for coordinated military 
operations. This agreement would be deeply problematic even if 
it were implemented. It would mean that the United States 
Military would effectively own future Russian airstrikes in the 
eyes of the world. It would also strengthen Assad's military 
position in the country, thereby undermining our own strategic 
objective of a political transition.
    It appears that none of this will ultimately matter, 
because, once again, Assad and Putin are not holding up their 
end of the deal, as nearly everyone predicted. Assad has 
declared an end to the cease-fire. Barrel bombs are falling 
again on civilians in Aleppo. An airstrike reportedly carried 
out by Russia has killed 12 members of a U.N. [United Nations] 
humanitarian convoy. Nonetheless, administration officials are 
desperately trying to salvage this agreement, likely because 
they realize that, without this diplomatic fig leaf, the abject 
failure of their Syria policy will be evident, and because they 
know, as does everyone else, that there is no Plan B.
    This should be yet another lesson, as if we needed it, that 
diplomacy in the absence of leverage is a recipe for failure. 
Our adversaries will not do what we ask of them out of the 
goodness of their hearts or of--out of concern for our 
interests or the suffering of others. They must be compelled, 
and that requires power. Until the United States is willing to 
take steps to change the conditions on the ground in Syria, the 
war, the terror, the refugees, and the instability will 
continue.
    Such will be the unfortunate inheritance of our next 
President, a Middle East aflame, where American influence has 
been squandered. America's adversaries neither respect nor fear 
us. America's friends are increasingly hedging their bets. 
America's policy options have been significantly narrowed and 
worsens. What's worse, America's military will confront these 
daunting challenges with constrained budgets, aging equipment, 
depleted readiness, and a growing set of operational 
requirements driven by other escalating challenges in Europe 
and Asia. We are simultaneously asking our military to wage a 
generational fight against Islamist terrorism while rebuilding 
a ready and modernized force to deter and, if necessary, defeat 
great-power or rogue-state competitors in full-spectrum combat.
    I would be the first to admit that Congress is failing in--
to match resources to requirements, but the failure of the 
President is worse. After all, it is the duty of the Commander 
in Chief to be the strongest advocate for the needs of our 
military. But, President Obama has been more interested in 
using the defense budget as a hostage to extract political 
concessions for greater nondefense spending.
    Secretary Carter, this may be one of your last appearances 
before this committee. I hope you will use the opportunity to 
offer some clear answers to these troubling questions.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I would like to join you in welcoming Secretary Carter and 
General Dunford.
    Giving the security challenges that face the United States, 
your appearances before the committee are always deeply 
appreciated and very timely, particularly this moment.
    While significant work remains to defeat ISIL, the United 
States and coalition military operations have resulted in 
important gains in both Iraq and Syria. Most notably, ISIL has 
been driven out of a significant amount of the territory the 
group once held. In just the last few weeks alone, ISIL lost 
its hold on the city of Manbij, a number of key border 
crossings in Syria in several key towns in advance of the Mosul 
offensive in Iraq.
    The cumulative effect of these operations has been to cut 
off key lines of communication for ISIL, thereby restricting 
their ability to bring in additional fighters and move 
equipment and personnel across the battlefield. As a result, it 
appears that ISIL is under more pressure now than at any other 
time in the campaign.
    Unfortunately, in Syria it appears that the cessation of 
hostilities is not going to hold. We look forward to your 
assessment of the progress and the military aspects of this 
campaign and whether there is a possibility of a renewed 
cessation of hostilities in the future.
    Our military commanders are also rightly focused on 
ensuring our military operations support the efforts of our 
diplomats and other policymakers to address the continuing 
political challenges in Iraq and Syria. Even after the 
coalition retakes Mosul and Raqqa, the work of our diplomats, 
military, and intelligence community will not be over. Ensuring 
ISIL is dealt a lasting defeat will require not only continued 
military support, but also assistance in achieving the 
political reforms necessary to address the underlying causes of 
ISIL's rise. This will require that the civilian agencies of 
our Government are provided the critical resources necessary to 
perform this work.
    With regard to Afghanistan, I support the President's 
position to maintain approximately 8400 troops in the country 
into next year. This decision sent an important message to the 
Afghans, our allies, the Taliban, and others in the region, 
that the United States remains committed to ensuring a stable 
Afghanistan. We look forward to your assessment of this year's 
fighting season and what more we can do to support the 
development of the Afghan national defense and security forces.
    Despite a challenging security and political environment, 
the Afghan National Unity Government continues to be a reliable 
partner for the United States and our allies. However, I remain 
concerned about continuing reports of corruption in Afghanistan 
and the slow political progress on the broader reform agenda. 
Both these issues present a strategic threat to continued 
international support of Afghanistan. In light of these 
challenges, I hope you will also discuss the efforts of the 
United States and our allies to build institutional capacity 
and enable necessary reforms in Afghanistan.
    In Eastern Europe, Russia continues its pattern of 
confrontation and antagonistic behavior. They persist in the 
use of hybrid tactics to foment discord and political gridlock 
throughout the region. Their aviators have harassed U.S. ships 
and aircraft deployed to the region. They continue to provide 
support and training to Separatists in Eastern Ukraine, in 
violation of the Minsk cease-fire agreements. EUCOM [European 
Command] and NATO [North Atlantic Treaty Organization] have 
undertaken robust efforts to deter such behavior. I look 
forward to hearing your thoughts on the progress of, and future 
plans for, such efforts.
    North Korea remains one of the most dangerous and difficult 
national security challenges that this country faces. Earlier 
this month, North Korea conducted its fifth nuclear test, 
demonstrating that the North Korean regime has little interest 
in resuming Six-Party Talks. While we have made significant 
efforts to put strong and effective sanctions in place to curb 
North Korea's nuclear development, China's unwillingness to 
enforce those sanctions to the full extent of its ability has 
undermined United States and international efforts to bring 
North Korea in line.
    Finally, our long-term military strategy depends on a 
budget that focuses at least five years into the future. Last 
year, Congress passed a 2015 Bipartisan Budget Act, which 
provided the Department with budget stability in the near term. 
However, there is no budget agreement for fiscal year 2018 and 
beyond. Without another bipartisan agreement that provides 
relief from sequestration, the Department will be forced to 
submit a fiscal year 2018 budget that adheres to the 
sequestration-level budget caps and could, and indeed would, 
undermine our defense strategy, including the investments made 
to rebuild readiness and modernize platforms and equipment. We 
must not let that happen.
    Thank you, again, Mr. Chairman. Thank you, gentlemen.
    Chairman McCain. Welcome, Mr. Secretary. This is the last 
time for this year. We appreciate your--you and General 
Dunford's appearances before the Armed Services Committee. We 
look forward to your and General Dunford's testimony. Thank you 
for--both of you, for your service to our Nation.
    Secretary Carter.

 STATEMENT OF HONORABLE ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Thank you very much. Chairman, Ranking 
Member Reed, all the members of this committee, thank you for 
having us here.
    Chairman and Senator Reed, thanks for taking the time to 
talk with me before this hearing--I much appreciate it, as 
always--and for hosting General Dunford by my side, where he is 
all the time. I'm very pleased, and our country is very 
fortunate to have him.
    Similarly, I want to thank you for hosting the Service 
Chiefs last week. I appreciated your comments to them about the 
inefficiencies and the dangers of continued budget instability 
and gridlock, as well as the risk of sequestration's looming 
return. I look forward to addressing those topics more today 
with you.
    I also appreciate your support for our men and women 
serving around the world, military and civilian alike. You 
always provide it. They are the finest fighting force the world 
has ever known. They're the--no one else in the world is 
stronger, no one is more capable, more innovative, more 
experienced, and has better friends and allies than they. 
That's a fact, and a fact that Americans ought to be proud of.
    As you know, DOD [Department of Defense] is currently 
addressing each of the five challenges that Chairman Dunford 
and I described to you in our budget testimony this spring and 
that the Chairman and Senator Reed have already touched on, 
namely Russia, China, North Korea, Iran, and terrorism. On the 
last, in the wake of this week's attacks in New York, New 
Jersey, and Minnesota, we remain as determined as ever to 
continue countering terrorists around the world who seek to do 
harm to our country and our personnel. More on that shortly.
    As Chairman Dunford and I testified this spring, we've been 
planning for our activities to be paid for by the 2017 budget 
that we have submitted and that we developed. That budget 
adhered to last fall's bipartisan budget deal in overall size. 
While in shape, it marked a strategic turning point for DOD, 
making breakthrough investments in new operational concepts, in 
pioneering technological frontiers, in reforming the DOD 
enterprise, and in building the force of the future. It also 
put a high premium on continuing to rebuild the readiness of 
our forces, requiring not only stable resources, but also time. 
Nothing is more important than readiness to me or to the 
Service Chiefs.
    Yet today, just eight days away from the end of this fiscal 
year, that budget has yet to be funded by Congress. I want to 
discuss that with you today. But, because this hearing is 
partly about ongoing military operations, let me begin with an 
operational update on our campaign to deliver ISIL a lasting 
defeat.
    Now, each time Chairman Dunford and I have appeared before 
this committee since back last October, I've described to you 
our coalition military campaign plan, which is focused on three 
objectives. The first is to destroy ISIL's--the ISIL cancer's 
parent tumor in Iraq and Syria, because the sooner we end 
ISIL's occupation of territory in those countries, that is the 
sooner we destroy both the fact and the idea of an Islamic 
State based on ISIL's barbaric ideology, the safer all of the 
world will be. That's necessary, absolutely necessary. It's not 
sufficient. Our second objective is to combat ISIL's metastises 
everywhere they emerge around the world--in Afghanistan, Libya, 
and elsewhere. Our third objective is to help protect the 
Homeland. This is mainly the responsibility of our partners in 
the FBI [Federal Bureau of Investigation], the Justice 
Department, Homeland Security, the intelligence community, and 
State and local law enforcement, but DOD strongly supports 
them. I'll address how, momentarily.
    Since last fall, we've taken many steps to continually 
accelerate this campaign, all consistent with our strategic 
approach of enabling capable, motivated local forces, for 
that's the only way to ensure ISIL's lasting defeat. While we 
have much more work to do, the results of our effort are 
showing.
    In Iraq, we've been enabling Iraqi Security Forces and the 
Kurdish Peshmerga. After retaking Ramadi and establishing a 
staging base at Makhmour, the ISF went on to retake Hit, 
Rutbah, Fallujah, and the important airfield and town of 
Qayyarah, setting the stage to complete the envelopment of 
Mosul and the collapse of ISIL's control over it. In the last 
few days, the ISF became--began operations to retake Sharqat 
and other towns surrounding Mosul. The final assault on Mosul 
will commence, as with previous operations, when Prime Minister 
Abadi gives the order.
    In Syria, our coalition has also enabled considerable 
results by our local partners. They retook Shaddadi, severing a 
key link between Raqqa and Mosul, and then Manbij city, 
clearing a key transit point for ISIL's external operations and 
plotters, and providing key intelligence insights. 
Additionally, our ally Turkey is helping local Syrian partners 
clear their border region with ISIL. We're working shoulder-to-
shoulder with the Turks, supporting these efforts from the air, 
on the ground, and with intelligence. As we do so, we're 
managing regional tensions, tensions that we've foreseen, and 
keeping everyone focused on our common enemy: ISIL.
    Meanwhile, we're systematically eliminating ISIL's 
leadership, with the coalition having taken out seven members 
of the ISIL senior Shura, including its chief of external 
operations, Al-Adnani. He was one of more than 20 ISIL external 
operators and plotters we removed from the battlefield.
    We're also continuing to go after ISIL's attempts to 
develop chemical weapons as we continue to ensure that United 
States, coalition, and Iraqi troops are vigilantly protected 
from that threat. Just last week, in one of the single largest 
airstrikes of our campaign, we destroyed a pharmaceutical 
facility near Mosul that ISIL tried to use as a chemical 
weapons plant.
    We also continue to aggressively attack ISIL's economic 
infrastructure--oil wells, tanker trucks, cash storage, and 
more--and we continue to take the fight to ISIL across every 
domain, including cyber.
    With all this, we're putting ISIL on the path to a lasting 
defeat in Iraq and Syria, particularly as we embark on a 
decisive phase of our campaign, to collapse ISIL's control of 
Mosul and Raqqa.
    With respect to the Syrian civil war, I want to commend 
Secretary Kerry for working so tirelessly to seek an 
arrangement which, if implemented, would ease the suffering of 
the Syrian people and get Russia pushing at last for a 
political transition, which is the only way to end the Syrian 
civil war. There remains a way to go to see if the terms of 
that arrangement can be implemented. Unfortunately, the 
behavior we've seen from Russia and Syria over the last few 
days has been deeply problematic.
    Let me turn to our second objective, combating ISIL's 
metastases.
    In Libya, thanks to United States precision airstrikes 
undertaken at the request of the Government of National Accord, 
ISIL's territory in Sirte has now been reduced to a single 
square kilometer, and I'm confident ISIL will be ejected from 
there.
    Meanwhile, in Afghanistan, we worked with our Afghan 
partners to conduct a large operation against ISIL over the 
last two months, dealing the organization severe blows, killing 
its top leader, and degrading its infrastructure, logistics 
base, and recruiting. There'll be more coming.
    Next, to help protect our Homeland and our people, DOD 
continues to provide strong support to our law enforcement, 
Homeland security, and intelligence partners. This is the 
number-one mission of our Northern Command. The U.S. military 
is supporting our partners in three critical ways. First, we're 
ensuring the protection of our personnel and the DOD facilities 
where they work and reside. Second, we're disrupting ISIL's 
external operations. More on that shortly. Third, we're also 
disrupting the flow of foreign fighters both to and from Iraq 
and Syria. This is part of a broader effort within our 
coalition to not only stem the flow of foreign fighters, but 
also counter ISIL's online messaging, recruitment, and spread 
of its loathsome ideology.
    Going forward, the collapse of ISIL's control over Raqqa 
and Mosul, which we're confident our coalition will achieve, 
will indeed put ISIL on an irreversible path to lasting defeat. 
But, after that, to take up a point that both the Chairman and 
Ranking Member Reed made, there will still be much more to do. 
Political challenges will remain. For that reason, the 
international coalition's stabilization efforts cannot be 
allowed to lag behind our military progress. That's critical to 
making sure that ISIL, once defeated, stays defeated. Truly 
delivering ISIL a lasting defeat requires both strategic 
patience and persistence. We can't predict what will come after 
our coalition defeats ISIL, so we must be ready for anything, 
including any attempts by ISIL to remain relevant even if only 
in the darkest corners of the Internet.
    Let me now address issues DOD faces in institution, and how 
you can help. We have three grave concerns related to processes 
here in Congress. One, budget gridlock and instability. Two, 
micromanagement and over-regulation. Three, denial of needed 
reforms. As you've heard consistently from me and DOD senior 
leaders, all three are serious concerns. But, here today, 
because of how close we are to the end of the fiscal year, I 
want to focus just on the first.
    We need Congress to come together around providing normal, 
stable, responsible budgets, because the lack of stability 
represents one of the single biggest strategic risks to our 
enterprise at DOD. That's why I've been talking about the major 
risk posed by budget instability for over a year and a half. 
You heard the same from the Service Chiefs last week. Such 
budget instability undercuts stable planning and efficient use 
of taxpayer dollars, often in ways taxpayers can't even see. It 
baffles our friends, emboldens our foes. It's managerially and 
strategically unsound. It's unfairly dispiriting to our troops, 
to their families and our workforce. It's inefficient for our 
defense industry partners, too.
    We're now 8 days away from the end of the fiscal year. But, 
instead of stability, we're going into fiscal year 2017 with 
yet another Continuing Resolution [CR]. This, for the eighth 
fiscal year in a row. That's a deplorable state of affairs. 
Chairman McCain, I appreciate your comments to our Service 
Chiefs about the damage the CR can do to our institution.
    As you know, the longer a Continuing Resolution lasts, the 
more damaging it is. It's not just a matter of money, but where 
the dollars are. For example, a CR that goes past December 
would undermine our plan to quadruple our European Reassurance 
Initiative at a time, as the Chairman already noted, when we 
need to be standing with our NATO [North Atlantic Treaty 
Organization] allies, and standing up to deter Russian 
aggression. I know you will return here in November to pass 
defense appropriations and a National Defense Authorization 
Act. I look forward to working with you then.
    However, I cannot support any approach to the defense 
budget that moves us towards sequestration or away from 
bipartisanship and not at the expense of stability that comes 
with it, not if it shortchanges the needs of our warfighters, 
not if it means funding lower priorities instead of higher 
priorities, not if it undermines confidence in the ability to 
pass bipartisan budget deals which could lead to the imposition 
of sequestration's $100 billion in looming automatic cuts to 
us, and not if it adds extra force structure that we can't 
afford to keep ready in the long term, which would only lead to 
a hollow force. I'm confident and hopeful that we can come back 
together again.
    Today, America is fortunate to have the world's greatest 
military. I know it. You know it. Our friends and allies know 
it. Critical--critically, our potential adversaries know it, 
too. Only with your help can we ensure that my successors can 
say the same and that what is today the finest fighting force 
the world has ever known remains that way for years to come.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

         Prepared Statement by Secretary of Defense Ash Carter
    Chairman McCain, Ranking Member Reed, Members of the Committee:
    Thank you for hosting me and Chairman Dunford today, and also for 
hosting the Chiefs of the military services last week. I particularly 
appreciated your comments to them about the inefficiencies and dangers 
of continued budget instability and gridlock, as well as the risk of 
sequestration's looming return. I look forward to addressing those 
topics and more during today's hearing.
    I also appreciate your support for our men and women serving around 
the world, civilian and military alike, who are the finest fighting 
force the world has ever known. There's no other military that's 
stronger, or more capable, or more innovative, or more experienced, or 
with better friends and allies. That's a fact--one that every American 
ought to be proud of.
    As you know, the Department of Defense is currently addressing each 
of the five major, immediate, evolving challenges we face, which 
Chairman Dunford and I discussed with you during our budget testimony 
this past spring--challenges from Russia, China, North Korea, Iran, and 
terrorism. On that note, in the wake of this week's attacks in New 
York, New Jersey, and Minnesota, we remain absolutely determined, as 
ever, to continue countering terrorists around the world who would seek 
to do harm to our country and our people.
    We don't have the luxury of choosing between these challenges, 
which is why American soldiers, sailors, airmen, and Marines are 
working with partners from our worldwide coalition in more ways and 
with more power every day to accelerate the lasting defeat of ISIL, 
which we will surely do and want to do soon. They're also training and 
operating with our NATO allies in Europe to deter Russian aggression. 
They're sailing the waters of the Asia-Pacific as part of a principled 
and inclusive network of nations--ensuring that the most consequential 
region for America's future remains stable, secure, and prosperous for 
all nations. They're standing guard 24/7 on the Korean Peninsula, 
helping strengthen our deterrent and defenses in the face of North 
Korea's nuclear and missile provocations. They're countering Iran's 
destabilizing influence against our friends and allies in the Middle 
East. All the while, they're helping protect our people here at home 
and helping to make a better world for our children. They're preparing 
to contend with an uncertain future--ensuring we continue to stay the 
best and stay ahead in a changing and competitive world.
    As Chairman Dunford and I testified not only to this committee, but 
to all four of our defense oversight committees in the spring, we've 
been planning for these operations to be paid for by the fiscal year 
(FY) 2017 defense budget we developed. This budget not only adhered to 
last fall's bipartisan budget deal in overall size; in shape, it marked 
a strategic turning point for DOD--making and sharpening breakthrough 
investments in supporting new operational concepts, in pioneering and 
dominating technological frontiers, in reforming the DOD enterprise, 
and in building the force of the future. That budget also put an 
extremely high premium on continued funding to rebuild the readiness of 
our forces--requiring not only stable resources, but also time--the 
importance of which you heard about from the Chiefs last week. Nothing 
is more important than readiness to me or them. Yet today, just eight 
days away from the end of this fiscal year and the beginning of the 
next, that budget has yet to be funded by Congress--another topic, and 
a challenge, that I'll address in greater detail shortly.
    Because this hearing is focused in part on ongoing military 
operations, let me begin with an operational update focusing 
specifically on our campaign to deliver ISIL a lasting defeat.
                    counter-isil operational update
    In each of the four times that Chairman Dunford and I have appeared 
before this committee since last October, I walked you through how we 
were continually accelerating this campaign--starting with outlining 
our coalition military campaign plan, which is focused on three 
objectives that I've stressed consistently.
    The first objective is to destroy the ISIL cancer's parent tumor in 
Iraq and Syria. ISIL's occupation of territory in those countries 
threatens not only the lives of the Iraqi and Syrian peoples and the 
stability of that vitally important region, but also the security of 
our own citizens and those of our friends and allies. That means the 
sooner we defeat ISIL in Iraq and Syria--the sooner we destroy both the 
fact and the idea of an Islamic state based on ISIL's barbaric 
ideology--the safer all of us will be. That's why we're applying 
simultaneous pressure on ISIL from multiple directions and across 
domains--on the ground, from the air, and in cyberspace. We're doing 
all this consistent with our strategic approach, which is to enable 
capable, motivated, local forces--for that is the only way to defeat 
ISIL and keep them defeated, ensuring a lasting defeat.
    Now, while defeating ISIL in Iraq and Syria is necessary, it's not 
sufficient.
    Indeed, we know this cancer can metastasize, and in some cases it 
already has. This brings me to the second objective of our coalition 
military campaign plan, which is to combat ISIL's metastases around 
world. That's why U.S. and coalition forces are engaged in supporting 
capable, motivated local forces in operations against ISIL in 
Afghanistan, in Libya, and elsewhere, and in countering ISIL across the 
intangible geography and terrain of the Internet.
    Our third objective is to help protect the homeland. Here, recent 
events continue to emphasize the importance of this mission. This is 
mainly the responsibility of our partners in the FBI, the Justice 
Department, the Department of Homeland Security, the Intelligence 
Community, and state and local law enforcement. But DOD strongly 
supports them in a number of important ways that I'll describe in more 
detail later in this testimony.
    Now, as I noted, Chairman Dunford and I have seen you several times 
since last October, when we first described to you our plan to 
accelerate the campaign against ISIL. Since then, we've taken a great 
many steps to do just that. As we take advantage of new opportunities 
generated by new intelligence, newly trained partners, and strikes 
against ISIL leaders, infrastructure, and finances, we're generating 
more new opportunities, and then seizing those opportunities to repeat 
this cycle--reinforcing success. I should note that every time Chairman 
Dunford and I have recommended additional accelerating actions to 
President Obama, he has approved them.
    Let me briefly remind you of the initial steps we took beginning 
last fall to start accelerating the campaign. First, we deployed 
additional strike aircraft to Incirlik to support an expanded air 
campaign against new targets and new categories of targets illuminated 
by refined intelligence. We deployed an initial contingent of special 
operations forces to Syria. We expanded efforts to equip Syrian Arab 
Coalition forces engaged in the fight against ISIL. We began enabling 
capable, motivated local forces in southern Syria as well, and 
enhancing Jordan's own border control and defenses. We leveraged air 
power and advisors to help the Peshmerga take Sinjar, cutting the Iraqi 
side of the main line of communication between ISIL's power centers in 
Raqqa and Mosul. We introduced an expeditionary targeting force to go 
after ISIL leaders wherever they may be attempting to hide. We worked 
to improve our ability to target ISIL's leadership and presence beyond 
Iraq and Syria. We started to expand the military campaign against ISIL 
to every domain, including cyber. We stepped up our homeland defense 
and force protection measures to counter any additional threats to our 
facilities and our personnel at home and abroad. We began precision 
strikes against ISIL senior leaders and training camps in Libya--
removing ISIL's leader there, Abu Nabil, for instance. We went after 
ISIL in Afghanistan.
    These were followed this past spring and summer with even more 
accelerants. In Iraq, in close coordination with the Iraqi government, 
I announced we would be adding additional personnel there to enable the 
Iraqis to make faster progress in Anbar and Ninewa Provinces. I also 
announced that we would be placing advisors with the Iraqi Security 
Forces (ISF) down to the brigade and battalion level; leveraging Apache 
attack helicopters to support the ISF's efforts to envelop and then 
retake Mosul; sending additional High-Mobility Artillery Rocket System 
(HIMARS) batteries to support the Iraqi ground offensive there; and, 
providing financial assistance to the Peshmerga, up to $415 million, to 
bolster one of the most effective fighting forces against ISIL. 
Meanwhile, in Syria, we announced a six-fold increase of U.S. forces 
there, from 50 to 300, to help expand ongoing efforts to identify, 
train, and equip capable, motivated local anti-ISIL forces inside 
Syria, especially among the Sunni Arab community. In addition to 
initiating training inside Syria, we've also continued to refine our 
train-and-equip efforts of other vetted Syrian forces outside of Syria, 
using the important authorities and funding provided to us by Congress 
under the Section 1209 program--and here, as I've described to you 
before, we're keeping our focus on battle-hardened, proven anti-ISIL 
leaders whom we could make more capable as enablers and amplifiers of 
our effects.
    At the same time, in addition to accelerating the campaign with 
more U.S. capabilities, we renewed our outreach to coalition members, 
including in Europe, in the Middle East, and in Asia. Over the last 
nine months, I've convened my counterparts several times--in Paris, 
Brussels, Riyadh, Stuttgart, and here in Washington this past July--not 
only to rally them behind the campaign plan and the next steps in its 
execution, but above all to urge them to contribute more, and in more 
meaningful ways. As we've done more, so have our partners. That 
collaboration will continue.
    In sum, we steadily executed the campaign plan and first set of 
plays we devised and I described to this committee many months ago. Now 
we're on to the next plays in our campaign, which you'll recall 
Chairman Dunford and I previewed for you in April, and are now 
underway--more on that in a moment.
    Because the acceleration of our campaign has continued since then, 
I'd like to now update you on the latest results of the coalition's 
military campaign, as well as what we will need to do going forward.
Destroying ISIL's Parent Tumor
    Let me begin with our first objective, destroying ISIL's parent 
tumor in Iraq and Syria. Here, since last fall--town after town, from 
every direction, and in every domain--our campaign and operations have 
accelerated, pressuring and squeezing ISIL, and rolling it back towards 
Mosul in Iraq and Raqqa in Syria. While we have much more work to do--
including to collapse ISIL's control over Mosul and Raqqa--the results 
of our efforts are showing.
    In Iraq, we've been enabling the Iraqi Security Forces led by Prime 
Minister Abadi and the Kurdish Peshmerga commanded by Iraqi Kurdistan 
Regional President Barzani. After retaking Ramadi and establishing a 
staging base at Makhmour, the ISF went on to retake Hit, Rutbah, 
Fallujah, and the important airfield and town of Qayyarah--setting the 
stage to complete the envelopment and isolation of Mosul and collapse 
ISIL's control over it. In the last few days, the ISF began operations 
to retake Sharqat and other towns surrounding Mosul. The final assault 
on Mosul will commence--as with previous operations--when Prime 
Minister Abadi gives the order. In the meantime, the coalition has been 
actively laying the groundwork with the generation of necessary Iraqi 
Security Forces and Kurdish Peshmerga, preparation of staging areas, 
and positioning of our strike assets to cover the assaulting Iraqi and 
Kurdish forces. In close coordination with the Iraqi government, these 
efforts are being bolstered by the addition of 560 U.S. troops I 
announced in July. We stand ready to contribute even more, in 
consultation with our Iraqi partners.
    In Syria, our coalition has also enabled considerable results by 
our local partners. There, local forces retook Shaddadi--severing a key 
link between Raqqa and Mosul, and thereby ISIL in Iraq and ISIL in 
Syria--and then Manbij City--clearing a key transit point for ISIL's 
external operators and plotters, and letting us gain intelligence 
insights that have helped us map ISIL's network of foreign fighters. 
Additionally, our ally Turkey is helping local Syrian partners clear 
the Turkish-Syrian border region of ISIL. We're working shoulder-to-
shoulder with the Turks, supporting those efforts from the air, on the 
ground, and with intelligence, and we will continue to coordinate with 
them as we have with all of our partners so far. In that regard, I 
welcome the Turkish government's comments about the importance of 
working with local partners.
    As we do all this, we are managing challenges that we've foreseen, 
including friction between some of our partners and also political 
instability. That's why our forces and commanders on the ground and in 
the region remain laser-focused on overcoming these challenges, so we 
can continue to accelerate our campaign.
    Indeed, even with the considerable results achieved so far, we are 
not letting up. Across both Iraq and Syria, our coalition continues to 
pressure ISIL in several key ways.
    We're systematically eliminating ISIL's leadership: the coalition 
has taken out seven members of the ISIL Senior Shura--including ISIL's 
Minister of War, Omar al Shishani; ISIL's Finance Minister, Hajji Iman; 
ISIL's Minister of Information, Dr. Wa'il; and ISIL's Chief of External 
Operations, Abu Muhamad al Adnani, who was one of ISIL's most lethal 
leaders and was actively plotting to kill civilians abroad. We also 
removed key ISIL leaders in both Libya and Afghanistan. Wherever our 
local partners have advanced, we've taken out ISIL field commanders. 
We've removed from the battlefield more than 20 of ISIL's external 
operators and plotters, including Jihadi John and Junaid Hussein, among 
others.
    Beyond key ISIL personnel, we're continuing to go after key ISIL 
capabilities, including its attempts to develop chemical weapons. As 
you know, we previously captured one of the principals of ISIL's 
chemical warfare enterprise, and just last week, in one of the single 
largest airstrikes of our campaign, we destroyed a former 
pharmaceutical facility near Mosul that ISIL tried to use as a chemical 
weapons plant. Meanwhile, we're also continuing to aggressively attack 
the economic infrastructure that ISIL uses to fund its operations--from 
oil wells and tanker trucks to cash storage sites and key financial 
centers. We continue to take the fight to ISIL across every domain, 
including cyber.
    All of this together underscores how we are putting ISIL on the 
path to a lasting defeat in Iraq and Syria. We are now launching a 
decisive phase of our campaign, as the plays we're currently executing 
culminate in the isolation and collapse of ISIL's control over Raqqa 
and Mosul.
    Now, we aren't yet releasing the full operational details of these 
plays in public. That's because--as I told troops from the XVIII 
Airborne Corps at Fort Bragg in July before they deployed to lead our 
operations in Iraq and Syria under the command of Lieutenant General 
Steve Townsend--we don't want the enemy to know too much about what 
we're doing, what we're thinking, and where we're going and when. But I 
do want to broadly describe the basic elements to you, as I did with 
our troops in July.
    In Syria, operations are focused on shutting down the last 
remaining paths for ISIL fighters to move into and out of that 
country--particularly when it comes to their external operators--and 
then on generating forces and preparing them for the envelopment of 
Raqqa. We're seeking to expand on recent gains of our local, capable 
partners in Manbij City, along the Mar'a Line, and elsewhere in 
Northern Syria to help them ensure ISIL cannot control that key 
terrain. In addition, we will aggressively pursue opportunities to 
build pressure on ISIL in Syria from the south, complementing our 
existing robust efforts from northeastern Syria.
    In Iraq, our actions in the western part of the country are focused 
on enabling the ISF to pursue mopping-up operations along the Euphrates 
River Valley--in order to clear the remaining pockets of ISIL presence, 
push the ISIL threat farther away from Baghdad, and help the government 
of Iraq reassert not only full control over its borders, but also 
control over some of its main lines of communications. In the north, 
we're continuing to help the ISF clear the remaining pockets of ISIL 
control along the Tigris River Valley leading up to Mosul. We've been 
helping the ISF and Kurdish Peshmerga to refit and generate the forces 
and logistical footprint necessary for their joint efforts to isolate 
and pressure Mosul, approaching from both the north and the south.
    Meanwhile, as this isolation and pressure on Raqqa and Mosul 
continues to build from the outside in, our partners will continue to 
reach deep inside those cities to pressure ISIL from the inside out.
    It's already becoming clear that with the simultaneity of 
operations and pressure coalition forces are applying across Iraq and 
Syria, ISIL will simply no longer be able to resist. While ISIL is 
still a dangerous adversary and its lasting defeat will take time, we 
will continue to gather momentum until ISIL is defeated.
    Finally, with respect to the Syrian civil war, I commend Secretary 
Kerry for working so tirelessly to seek an arrangement which, if 
implemented, would ease the suffering of the Syrian people and get 
Russia pushing for a political transition, which is the only way to end 
the Syrian civil war. There remains a ways to go to see if the terms of 
that arrangement will be implemented--unfortunately the behavior we've 
seen from Russia and Syria over the last few days is deeply 
problematic.
Combatting ISIL's Metastases
    This brings me to the results in our campaign's second objective, 
combatting ISIL's metastases everywhere they appear around the world--
particularly in Libya and Afghanistan. I will address these in turn.
    A few months ago, Chairman Dunford and I expressed concern that if 
left untended, Libya could be the next ISIL headquarters, as ISIL's 
control over the city of Sirte was seen as their contingency plan for 
where they would go when they lost Raqqa and Mosul. But because the 
President authorized us to act, ISIL is now under tremendous pressure 
there, with its territory in Sirte reduced to a single square 
kilometer. Indeed, after some 50 days of supporting capable, motivated 
local forces fighting ISIL in its safe haven of Sirte, coalition 
operations--including with airstrikes at the request of Libyan 
Government of National Accord Prime Minister Sarraj--have shrunk ISIL's 
territory to a single neighborhood. I'm confident ISIL will be ejected 
from Sirte, and that we will keep looking for opportunities to combat 
ISIL in Libya; however, it is important to note that these are the 
military results. As we've known from the beginning, political progress 
will have to follow, including reconciliation, to deliver ISIL a 
lasting defeat in Libya.
    Let me now turn to Afghanistan, where we continue to counter 
terrorists--both ISIL and al Qaeda--as well as help support and 
strengthen the Afghan National Defense and Security Forces (ANDSF), 
which has the lead in fighting the Taliban and other terrorists within 
Afghanistan's borders.
    Working with our Afghan partners, we conducted a large operation 
against ISIL in Afghanistan over the last two months--dealing it severe 
blows, including killing its top leader, Hafiz Sayed Khan, and 11 other 
ISIL leaders, as well as degrading the organization's infrastructure, 
logistics base, and recruiting. There will be more to come in short 
order.
    Meanwhile, more broadly, the U.S. military continues to execute its 
two missions in Afghanistan--countering terrorism, and helping train, 
advise, and assist the ANDSF as part of NATO's Resolute Support 
Mission. As you know, President Obama approved our requests earlier 
this year to retain a more substantial U.S. force presence into 2017, 
to enhance the authorities of our ground commanders, and to maintain 
our financial commitment to the ANDSF through 2020. This will lead to 
positive effects. Indeed, while challenges remain--including political 
challenges--we're increasingly seeing the ANDSF undertake unilateral 
missions against ISIL and other targets on their own accord, with U.S.-
provided equipment.
Helping Protect our Homeland and our People
    Meanwhile, DOD continues to provide strong support to our partners 
in the FBI, the Justice Department, the Department of Homeland 
Security, the Intelligence Community, and state and local law 
enforcement to help protect our homeland and our people. This is the 
number-one mission of our Northern Command. Here the U.S. military is 
supporting our partners in three critical ways.
    First, we're ensuring the force protection for our troops and the 
DOD facilities where they work and reside--both on base, and the 
thousands of off-base installations we operate. Last summer's tragedy 
in Chattanooga underscored how ISIL seeks to target U.S. troops and DOD 
civilians, which is why we're putting in place stronger physical 
security systems, including stronger entry controls, better alarm 
systems, reinforced doors, additional ways to safely exit our 
facilities, and more. We continue to look for more ways to improve and 
strengthen our force protection.
    Second, we're disrupting ISIL's external operations and its ability 
to conduct such operations. As I discussed earlier, our operations to 
destroy ISIL's parent tumor directly support this effort, where we've 
removed dozens of ISIL external operators from the battlefield--
including, as I mentioned earlier in this testimony, ISIL's Chief of 
External Operations, Abu Muhamad Al-Adnani. We have entrusted this 
aspect of our campaign to one of DOD's most lethal, capable, and 
experienced commands, our Joint Special Operations Command, which 
helped deliver justice not only to Osama Bin Laden, but also to the man 
who founded the organization that became ISIL, Abu-Musab al Zarqawi.
    Third, we're also disrupting the flow of foreign fighters both to 
and from Iraq and Syria. Here, as I discussed earlier, we've not only 
been supporting capable, motivated local forces in Syria that have 
retaken cities that were key transit hubs for foreign fighters in 
northern Syria, but we've also been supporting Turkish military 
operations intended to seal the border with Syria and prevent foreign 
fighters from exploiting that border to conduct attacks against our 
European allies and our homeland. In recent months especially, our 
support of these operations has allowed us to gain new intelligence 
insights into ISIL's networks of foreign fighters--networks we are 
determined to destroy. In addition, we've worked with our coalition 
partners in a standing task force located in the region that looks at 
publically-available information and crosschecks it against our 
government's various databases to identify potential ISIL cells and 
foreign fighter facilitation networks. This is part of a broader effort 
within our coalition to not only stem the flow of foreign fighters, but 
also to counter ISIL's online messaging, recruitment, and the spread of 
its loathsome ideology.
Going Forward in the Counter-ISIL Campaign
    Looking to the future, the collapse of ISIL's control over Raqqa 
and Mosul--which we're confident our coalition will achieve--will put 
ISIL on an irreversible path to a lasting defeat. But, even when the 
coalition wins this fight--and let there be no doubt that we will--
there will still be much more to do. There will be towns to rebuild, 
services to reestablish, and communities to restore. Political 
challenges will remain. So when that time comes, the international 
community must ensure that the Iraqi and Syrian people have what they 
need to hold, stabilize, and govern their own territory. For that 
reason, the international coalition's humanitarian, stabilization, and 
governance efforts cannot be allowed to lag behind our military 
progress.
    Additionally, we must ensure that ISIL isn't able to take root in 
other parts of Iraq, and that the ISF and the Peshmerga are able to 
sustain the gains we've made with them. Such progress is critical to 
making our partners' gains enduring, and ensuring that ISIL, once 
defeated, stays defeated.
    Truly delivering ISIL a lasting defeat requires both strategic 
patience and strategic persistence. Even when ISIL is defeated 
militarily, our coalition will still have work to do. We can't predict 
what will come afterward, so we must be ready for anything--including 
for any attempts by ISIL to remain relevant, even if only on the 
darkest corners of the Internet. We will continue to support our law 
enforcement, homeland security, and intelligence partners in helping 
protect our homeland and our people.
   how congress can help--avoiding the biggest strategic dangers to 
                                defense
    Let me now turn to some issues that we in DOD face as an 
institution--not only in addressing the challenge posed by ISIL, but in 
addressing all of the five challenges I mentioned earlier, and ensuring 
our military's continued unrivaled breadth and strength into the 
future--and how you can help.
    These issues are grave concerns to us that we see manifested in 
processes here in Congress, and they are threefold: the first is budget 
gridlock and instability; the second, micromanagement and over-
regulation; and the third concern is the continued denial of needed 
reforms. Instead of these, we need budget stability achieved through 
bipartisanship. We need relief from over-regulation and 
micromanagement. We need more regard and respect for the considered 
judgment of DOD's most senior military and civilian leaders.
    As you've heard from me and DOD senior leaders in meetings, 
messages, and conversations, these are serious concerns. I could spend 
a lot of time focusing on each one, and I look forward to doing so when 
you return in November to work on passing an NDAA--hopefully one the 
President can sign. But here, at this hearing, I want to focus on the 
first concern, since the fiscal year ends in eight days.
Avoiding Budget Instability and Gridlock
    We need Congress to come together around providing normal, stable, 
responsible budgets--that is, appropriations--because lack of stability 
represents one of the single biggest strategic risks to our DOD 
enterprise. I've been talking to you for over a year and a half about 
the major risks posed by budget instability. That was why I supported 
last fall's bipartisan budget deal, and why DOD's budget for fiscal 
year 2017 reflected that deal. Now the time has come to begin that 
fiscal year, and I can only tell you the same thing: that budget 
instability is the greatest risk we face. You heard the same from our 
Service Chiefs last week.
    Such instability is exactly the kind of dysfunction that undercuts 
stable planning and efficient use of taxpayer dollars--often in ways 
taxpayers can't even see. It makes planning for the fight extremely 
difficult for our warfighters and commanders, including in our campaign 
to deliver ISIL a lasting defeat. It baffles our friends, and emboldens 
foes. It's managerially and strategically unsound, not to mention 
unfairly dispiriting to our troops and their families, and our 
workforce--all of whom deserve better, and deserve more predictability, 
to say the least. Not only our people; our defense industry partners, 
too, need stability and longer-term plans to be as efficient and 
cutting-edge as we need them to be. Even with the modicum of stability 
we got in last fall's budget deal, we still face the greatest risk of 
all to DOD in the eyes of all of us in the leadership--a return to 
sequestration funding levels, with $100 billion in looming, automatic 
cuts beginning next year if this isn't fixed. Those cuts, as you heard 
last week, are a major concern for our Service Chiefs, and for me as 
well. I am concerned that the gimmickry we are seeing around defense 
funding this year will invite the return of sequestration rather than 
make it less likely--because it signals that bipartisan compromises are 
not respected.
    We're now eight days away from the end of the fiscal year, but 
instead of stability, we're going into fiscal year 2017 with yet 
another continuing resolution (CR). This will be the eighth fiscal year 
in a row that's started with a continuing resolution. That's a 
deplorable state of affairs in itself, as this committee has made 
clear--and Chairman McCain, I appreciate your comments to our Service 
Chiefs about the damage a CR does to our institution, as I appreciate 
that this committee has been among the leaders in advocating for both 
the resources needed for defense and the timely appropriations we need 
to execute our mission.
    As you know and as you heard from the Chiefs last week, the longer 
a continuing resolution lasts, the more damaging it is--it makes the 
obvious mistake of having us do this year exactly what we did last 
year, despite the fact that we're trying to evolve and innovate to stay 
ahead in a changing world. It's not just a matter of money, but where 
the dollars are. For example, even a short-term CR slows our 
shipbuilding program, which is line appropriated, thereby preventing 
the Navy from moving forward on key programs and capabilities. It gets 
worse after three months--for example, the fiscal year 2017 defense 
budget quadrupled funding for our European Reassurance Initiative in 
order to help deter Russian aggression, but a continuing resolution 
extending past December would undermine our ability to build up 
prepositioned stocks of equipment and warfighting gear in the countries 
of our NATO allies. That would have great strategic consequences.
    If that weren't enough, the risk of instability is only half my 
concern for DOD's budget--the other is that our budget stability is 
also being subjected to risk through diversions of funds.
    As you know, last fall's bipartisan budget deal set the size of our 
budget for fiscal year 2017. While there was a difference between what 
we got in the budget deal and what we had proposed in the year prior, 
we determined we could mitigate that difference and still meet our 
needs, so we accordingly submitted our defense budget to reflect the 
bipartisan budget deal. Within a matter of months, however, some in 
Congress reintroduced instability by departing from the bipartisan 
budget deal and trying to come up with ways to go around it. I cannot 
support these approaches, and I'd like to tell you why.
    In the first approach, the House is diverting $18 billion from our 
overseas operations funds at a time when we have troops deployed in 
Syria, Iraq, and Afghanistan, and using the money for things DOD didn't 
ask for and in many cases cannot afford to maintain and keep ready over 
time. To do this--diverting warfighting funds at a time of war--is 
highly objectionable. It harms the readiness of our troops in order to 
buy more force structure that we can't afford to keep ready in the 
first place. It could overtax DOD by up to $30 billion over the next 
five years, at the same time that we may be facing $100 billion in 
sequestration cuts. It risks exacerbating our readiness challenges and 
creating hollow force structure. It threatens to unravel last fall's 
bipartisan budget deal, again raising the specter of sequestration.
    If this is allowed to happen, there is no way I can tell a soldier, 
sailor, airman, or Marine who's accelerating ISIL's lasting defeat or 
deterring Russian aggression that we're doing all we can for them here 
in Washington. Not when Congress can't pass timely appropriations. 
Certainly not when Congress diverts defense dollars from what should be 
inviolable: American troops deployed in harm's way. Those troops need 
to know that they're getting every resource they need to accomplish 
their mission. To take away from them goes too far--especially when 
emerging operational demands may soon require more resources than DOD 
initially budgeted for, not less.
    The backers of the House approach say they're doing it to help our 
readiness, but it would actually have the opposite effect on readiness. 
As you heard from the Service Chiefs last week and as you heard from me 
earlier in this testimony, nothing is more important to us than 
readiness, which is why it was the highest priority we had in preparing 
the 2017 defense budget--partly to rebuild full-spectrum readiness 
after 15 years of counterinsurgency operations, and partly to restore 
damage done to readiness over the last several years that was caused by 
the effects of sequestration cuts. As the Chiefs made clear to you, the 
problems we're fixing are different in each service--the Army needs 
time to put soldiers through full-spectrum brigade-level training 
rotations at its Combat Training Centers; for the Marine Corps, the 
issue is principally restoring readiness in aviation; for the Navy, 
it's ship depot maintenance; and for the Air Force, it's about 
maintaining readiness while remaining at a high operational tempo. Each 
of these shows how restoring readiness is not just about money; it also 
requires time, which the Chiefs told you as well. All of this 
underscores why what the House seeks to do would actually hurt 
readiness: because it risks the stability provided by last fall's 
bipartisan budget deal, and it would actually give us higher end-
strength for one year--that is, more people--whom we cannot afford to 
keep ready in the long-term.
    Others in Congress took a different approach, but I cannot support 
theirs either. In this case, one of the defense appropriations 
committees cut high-priority investments that we should be making in 
high-end capabilities, and then spent more money on lower-priority 
things we didn't ask for and already have enough of.
    While these cuts are less than $18 billion and do not take away 
from our warfighting funds, they still add up in ways that could 
seriously imperil our future strength. For example, this committee 
chose to gut funding for undersea drones--crippling our efforts to 
leverage unmanned technology to ensure our forces' global freedom of 
action and delivery of new payloads despite other nations' attempts to 
deny access to certain operating areas. They cut proven programs like 
the submarine-hunting P-8, a maritime patrol aircraft that prevents 
adversaries from using modern undersea technologies against us. They 
made significant cuts to some of our highest-priority electronic 
warfare systems, the Next-Generation Jammer and the Surface Electronic 
Warfare Improvement Program--handicapping our planes' future airborne 
electronic attack capabilities, and leaving our surface ships more 
vulnerable to advanced missile threats. They cut the critical core out 
of advanced munitions programs needed to increase our Navy's 
lethality--both the maritime-strike version of the Tomahawk cruise 
missile, and the new, highly-lethal anti-ship mode for one of our most 
modern and capable munitions, the SM-6 missile. On top of that, 
committees in both the House and Senate made cuts to critical defense 
innovation spearheads that we need to maintain our military's 
technological edge and counter some of the most vexing threats we 
face--taking away funding from our Strategic Capabilities Office, our 
partnership with In-Q-Tel, and our tech startup, the Defense Innovation 
Unit-Experimental (DIUx).
    Now, I don't believe there was ill-will here, but these were cuts 
to investments highly prioritized by DOD's senior military and civilian 
leaders, substituting lower-priority spending we didn't ask for. We 
oppose each of them, because they undermine our preparations to counter 
and stay ahead of our competitors' technological advances. I've seen 
the constant temptation over the years to starve new and future-
oriented defense investments in favor of more established and therefore 
well-entrenched programs. In a rapidly changing and competitive world, 
we must resist this temptation.
    Rather than funding these investments in lethality and innovation 
that were among our highest priorities for sharpening our military edge 
and staying ahead of our adversaries, Congress wants instead to buy 
things like an extra Littoral Combat Ship (LCS), which we didn't 
request. These ships have important uses, but we already bought 26, 
with 14 more on the way, and we do not need more. We have much greater 
needs: we need the undersea drones, advanced munitions, electronic 
warfare capabilities, P-8s, and innovation initiatives these measures 
would cut.
    Of course, there are other proposals which again do not comport 
with last fall's bipartisan budget deal. Having rejected the two 
approaches I just discussed, I also have to say--as you've heard me 
emphasize for the last year and a half--that I cannot support any third 
approach that moves us toward sequestration, or that moves us away from 
bipartisanship. Not at the expense of budget stability. Not if it 
shortchanges the needs of our warfighters. Not if it means funding 
lower priorities instead of higher priorities. Not if it undermines 
confidence in the ability to pass bipartisan budget deals, which could 
lead to the imposition of sequestration's $100 billion in looming, 
automatic cuts. Not if it adds extra force structure that we cannot 
afford to keep ready in the long-term and that would only lead to a 
hollow force.
          conclusion--the need for bipartisan budget stability
    I appreciate that this committee didn't follow either of those two 
approaches, but as conference negotiations continue, I must emphasize 
that what we need most is stability--it's critical in order for DOD and 
our people to address all the national security challenges we face.
    I am confident, and hopeful, that we can come back together again. 
Today, America is fortunate to have the world's strongest, most 
capable, most innovative military. I know it, you know it, our friends 
and allies know it, and critically, our potential adversaries know it 
too. Only with your help can we ensure that my successors can say the 
same, and that what is today the finest fighting force the world has 
ever known remains that way for years and generations to come.
    Thank you.

    Chairman McCain. General Dunford.

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Dunford. Chairman McCain, Ranking Member Reed, 
members of the committee, thank you for the opportunity to join 
Secretary Carter this morning.
    Before offering a brief assessment of ongoing operations, 
I'd like to associate myself with the comments made by the 
Service Chiefs who testified before this committee last week. 
As you'd expect, they offered their candid assessment about the 
readiness and the modernization challenges that affect each of 
the services. I fully concur with their assessment of the 
operational tempo and the budget challenges faced by each of 
the services and across the Department.
    But, due in large part to this committee's support, the 
joint force remains the most capable and professional military 
in the world. We can defend the Nation, we can meet our 
alliance responsibilities, and today we have a competitive 
advantage over any adversary. I think that's an important point 
that should not be lost on our allies, it should not be lost on 
our enemies, and it should not be lost on the men and women of 
the joint force, our soldiers, sailors, airmen, marines, and 
coastguardsmen.
    I say all that, mindful that we remain confronted with 
challenges from traditional state actors and violent extremism. 
Russia, China, Iran, and North Korea continue to invest in 
military capabilities that reduce that competitive advantage. 
They are also advancing their interests through adversarial 
competition that has a military dimension that falls short of 
armed conflict. Examples include Russian actions in the 
Ukraine, North Korea's nuclear saber-rattling, Chinese 
activities in the South China Sea, and Iran's malign activities 
across the Middle East. In different ways, each of these 
nations leverage economic coercion, information operations, 
cyber capabilities, unconventional warfare and force posture 
deliberately seeking to avoid a U.S. military response.
    Meanwhile, nonstate actors, such as ISIL and al Qaeda, 
remain a threat to our Homeland, the American people, our 
partners, and our allies. As evidenced by this past weekend's 
attacks, such extremist groups seek to inspire and radicalize 
others, and, in doing so, they're attempting to fundamentally 
change our way of life.
    The joint force is engaged in responding to each of these 
strategic challenges. We're focused on deterring potential 
adversaries, and we're prepared to respond, should deterrence 
fail.
    We also remain firmly committed to defeating ISIL and its 
affiliates wherever they may emerge. Since my last appearance 
before the committee, I've made additional trips to the Middle 
East, and I'm encouraged by the coalition's progress in Iraq 
and Syria. We've also degraded the Islamic State's capabilities 
in Libya, West Africa, and Afghanistan. Coalition operations 
supporting indigenous ground forces--and the Chairman mentioned 
this, Ranking Member Reed mentioned, the Secretary did--have 
disrupted core ISIL's ability to mount external attacks, reduce 
its territory of control, limit its freedom of movement, 
eliminate many of their leaders, and reduce the resources that 
they have available. Most importantly, the coalition has begun 
to discredit ISIL's narrative and its aura of invincibility. 
While more work remains to be done, and we're by no means--by 
no means are we complacent--it's clear we have the momentum in 
the military campaign.
    As the joint force addresses each of our strategic 
challenges, we also recognize the need to invest in the future. 
As the Secretary said, we don't have the luxury of choosing 
between the challenges that we face today or the challenges 
that we most assuredly will face tomorrow.
    To meet tomorrow's requirements, we must take action today. 
Our nuclear deterrent remains effective, but it is aging and 
requires modernization. At the same time, we must develop and 
enhance the capabilities that--in the increasingly contested 
domains of space and cyber. We must also do all that while we 
preserve the edge in our conventional capabilities. In the end, 
we must maintain a balanced inventory of joint capabilities and 
capacities to meet the full range of challenges that we will 
confront.
    In closing, I am concerned about readiness today, but I'm 
more concerned about maintaining a competitive advantage in the 
future. If we fail to modernize the joint force, we will be at 
a disadvantage in the future. I know the committee shares my 
belief that we should never send our soldiers, sailors, airmen, 
marines, or coastguardsmen into a fair fight.
    Thank you, Chairman, members of the committee.
    [The prepared statement of General Dunford follows:]

                 prepared statement by general dunford
    Chairman McCain, Ranking Member Reed, distinguished members of the 
committee, thank you for the opportunity to join Secretary Carter in 
appearing before you.
    Our thoughts are with those affected by this weekend's terrorist 
incidents in New York, New Jersey and Minnesota. We also remember the 
sacrifice of Lt. Col. Steven Eadie, who was killed in a U-2 mishap on 
Tuesday. our prayers are with the Eadie family and we wish his fellow 
airman a speedy recovery.
    Before offering a brief assessment of on-going operations, I would 
like to associate myself with the comments made by the Service Chiefs 
who testified before you last week. As you would expect, they offered 
their candid assessments about the readiness and modernization 
challenges confronting each Service. I continue to appreciate the 
operational tempo and budgetary challenges faced by each Service and 
across the Department.
    Due in large part to this committee's support, the Joint Force 
remains the most capable and professional military in the world. We can 
defend the nation, we can meet our alliance responsibilities, and today 
we have a competitive advantage over any potential adversary. That's an 
important point that should be understood by our allies, our enemies 
and by those most responsible for our competitive advantage, our 
soldiers, sailors, airmen, marines and coast guardsmen.
    I say all of that mindful that we remain confronted with challenges 
from traditional state actors and violent extremist organizations. 
Russia, China, Iran and North Korea continue to invest in military 
capabilities that reduce our competitive advantage. They are also 
advancing their interests through competition with a military dimension 
that falls short of traditional armed conflict and the threshold for 
traditional military response. Examples include Russian actions in 
Ukraine, North Korea's nuclear saber rattling, Chinese activities in 
the South China Sea and Iran's malign activities across the Middle 
East.
    In different ways, each of these nations leverage economic 
coercion, information operations, cyber capabilities, unconventional 
operations and force posture while deliberately seeking to avoid a 
direct U.S. Military response.
    Meanwhile, non-state actors such as ISIL and al Qaeda remain a 
threat to the Homeland, the American people, our partners and our 
allies. As evidenced by this past weekend's attacks, such extremist 
groups seek to inspire and radicalize others, and in doing so, they are 
attempting to fundamentally change our way of life.
    The Joint Force is engaged in responding to each of these strategic 
challenges. We are focused on deterring potential adversaries and are 
prepared to respond should deterrence fail. We also remain firmly 
committed to defeating ISIL and its affiliates wherever they may 
emerge. Since my last appearance before this committee, I have made 
additional trips to the Middle East. I am encouraged by the coalition's 
progress in Iraq and Syria. We have also degraded the Islamic State's 
capabilities in Libya, West Africa and Afghanistan.
    Coalition operations supporting indigenous ground forces have 
disrupted core ISIL's ability to mount external attacks, reduced its 
territorial control, limited its freedom of movement, eliminated many 
of its key leaders, and reduced its sources of revenue. Most 
importantly, the coalition has begun to discredit ISIL's narrative and 
its aurora of invincibility. While more work remains to be done, and we 
are by no means complacent, it is clear that we have the momentum.
    As the Joint Force addresses each of the strategic challenges I 
just described, we also recognize the need to invest for the future. As 
the Secretary said, we do not have the luxury of choosing between the 
challenges we face today or the challenges we will face in the future. 
To meet tomorrow's requirements, we must take action today. Our nuclear 
deterrent remains effective, but it is aging and requires 
modernization. At the same time, we must develop and enhance our 
capabilities in the increasingly contested domains of cyber and space . 
. . and we must do so while preserving our edge in conventional 
capabilities.
    In the end, we must maintain a balanced inventory of joint 
capabilities and capacities to meet the full array of challenges that 
we will confront in the future. In closing, while I am concerned about 
readiness today, we have a competitive advantage over any adversary. 
However, if we fail to modernize the Joint Force, we will be at a 
disadvantage in the future. I know that the committee shares my belief 
that we should never send our soldiers, sailors, airmen, marines and 
coast guardsmen into a fair fight.
    Thank you for the opportunity to appear before you this morning and 
I look forward to your questions.

    Chairman McCain. Thank you very much, General.
    Thank you for your comments about the testimony of the 
Service Chiefs. We appreciated it, too. We were shocked to--or 
at least surprised to learn that none of the Service Chiefs 
have had a conversation with the President of the United 
States. That's the first time I've ever heard of it in my years 
of service and membership of this committee.
    General Dunford, in your professional military opinion, is 
Russia in a quagmire in Syria?
    General Dunford. It's not clear to me that Russia is in a 
quagmire in Syria at this time, Chairman.
    Chairman McCain. In your professional military opinion, is 
the cessation-of-hostilities agreement being effectively 
implemented on the ground in Syria?
    General Dunford. That would not appear to be the case over 
the last 48 hours, Chairman.
    Chairman McCain. This is not the first time we've had one 
of these agreements. In fact, it's beginning to fit the 
definition of insanity, of doing the same thing over and over 
again. Suppose this fails again, General Dunford. What do we do 
then? Try another cease-fire? What do we do then? We just saw, 
as you know, evidence that a chemical weapon--and we knew that 
a chemical weapons factory was functioning in Raqqa. What's 
Plan B? Is there a Plan B, here, or do we just keep going back 
to the five-star hotels in Geneva and have meetings with our--
with Mr. Lavrov, and come out with various declarations? What 
do we do if this one fails?
    General Dunford. Chairman, we have a wide range of military 
options----
    Chairman McCain. Give us one.
    General Dunford. Chairman, if I could finish. We have a 
wide range of military options that we would provide to the 
President, should our policy change in the wake of this recent 
cessation----
    Chairman McCain. Is the present policy working?
    General Dunford. Against ISIL, the present policy is 
working.
    Chairman McCain. In Syria, with 400,000 people killed, 6 
million refugees, is our strategy in Syria working--succeeding?
    General Dunford. With regard to political transition in 
Syria, at this time, I would----
    Chairman McCain. In regards to the whole situation in 
Syria, is our policy working?
    General Dunford. Chairman, I'd let others address the 
policy. Our focus, from a military perspective, is----
    Chairman McCain. I'm asking----
    General Dunford.--our counter-ISIL campaign.
    Chairman McCain.--Is the military strategy succeeding in 
Syria?
    General Dunford. Our military strategy is focused on a 
counter-ISIL campaign. In my judgment, we are succeeding in 
that campaign.
    Chairman McCain. As far as you're concerned, we ignore the 
400,000 dead and the 6 million refugees. That's caused by 
Bashar Assad. Do you believe that, right now, it's very likely 
that Bashar Assad will leave power?
    General Dunford. I can't really judge that right now. It 
doesn't appear that he will in the near term, Chairman.
    Chairman McCain. You can't judge that.
    General Dunford. I can't judge the long-term prospects for 
Assad, was my point, Chairman. I'm----
    Chairman McCain. In the----
    General Dunford.--sure he's not----
    Chairman McCain.--short term?
    General Dunford.--leaving in the short term.
    Chairman McCain. In your professional military opinion, is 
it a good idea to set up an intelligence-sharing operation with 
the Russians?
    General Dunford. Chairman, we don't have any intention of 
having an intelligence-sharing arrangement with the Russians.
    Chairman McCain. That is part of Secretary Kerry's 
proposal, that we set up an intelligence-sharing operation in 
Syria with the Russians.
    General Dunford. Chairman, the United States military role 
will not include intelligence-sharing with the Russians.
    Chairman McCain. Do you support such an idea, that they 
should share intelligence--military intelligence information 
with Russia and Syria?
    General Dunford. Chairman, what the President has directed 
us to do is establish a joint implementation----
    Chairman McCain. I asked for your professional military 
opinion, not what the President has told you to do. I'm asking, 
as in your confirmation hearings, if you would give your 
professional military opinion to this committee in response to 
questions. I expect you to hold to that.
    Is it your professional military opinion that it would be a 
good idea to have an intelligence-sharing operation with Russia 
in Syria?
    General Dunford. Chairman, I do not believe it would be a 
good idea to share intelligence with the Russians.
    Chairman McCain. I thank you, General.
    On the issue of sequestration, could--I just mentioned--I 
hope it got the attention of all of my colleagues--that every 
one of the Service Chiefs said that, presently, sequestration 
puts our men and women who are serving in military in greater 
risk. At the same time, the President of the United States is 
demanding--is putting the risk to American servicemen and women 
on the same level as funding for the EPA. It is just remarkable 
to a lot of us that we don't take care of the compelling 
argument of caring--of reducing the risk to the men and women 
who are serving in the military, demanding that there be 
nondefense increases in spending at the same time.
    All I can say is, I thank you, Secretary Carter and General 
Dunford, but this latest information concerning a chemical 
shell obviously shows that, in Raqqa, they're doing a lot of 
things, including a chemical weapons factory, which adds a new 
dimension to the threat to the lives of the men and women who 
are serving in the military.
    I still look forward to hearing from Secretary Carter and 
General Dunford, What is the strategy if the present strategy 
continues to utterly fail? Frankly, I haven't heard that.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary and General Dunford, one of the factors that 
appears to be--influence the timing of the Mosul operation is 
to--how do you govern Mosul after you militarily succeed--Iraq 
Security Forces succeed, with American and coalition 
assistance? That triggers the issue of, not only the role of 
agencies outside Defense, like the State Department, USAID 
[United States Agency for International Development], and 
others, but the resources they have. It would be--is it 
necessary, in your view, that these agencies be robustly 
funded, in addition, because without them, you can have a 
military victory and essentially just wait around, because 
they'll come back because you haven't put the politics and the 
capacity together?
    Secretary Carter. It is necessary. I had the Defense 
Ministers of the key coalition contributors here to Andrews a 
little while ago, and we went through, as we always do, the 
campaign, their role, including the moves to envelope Mosul, 
which we've now taken. Their biggest concern with the campaign, 
at this point, in Iraq is exactly the one you note. Namely, is 
the political and the economic lagging so far behind the 
military that there's going to be an issue, once Mosul is--once 
ISIL is ejected from Mosul?
    I'm just very specifically--if I may, Senator, I'll take 
the political part and then the stabilization/reconstruction 
part.
    On the political part, this is a question that recurs, 
actually, everywhere we go. Everywhere we enable forces to 
defeat ISIL, the people who live there say, ``Well, what's 
going to happen afterwards?'' That's something we have dealt 
with in Hit, Fallujah, Rutbah, and some of--they're all 
complicated, all different. Mosul's going to be different, too.
    My understanding--and that's just not mine, but the 
Chairman's and the--our commanders there, and also the 
President's--with Prime Minister Abadi, President Barzani, who 
are contributing forces--the Peshmerga from the north, a couple 
of brigades, and the ISF [Iraqi Security Forces] from the 
south, for the envelopment and collapse of control on--of 
ISIL's control on Mosul. Our understanding with them, which 
they are both adhering to, is that neither of the forces that 
will participate in taking Mosul should be the hold-and-govern 
force there. They should be local police--Sunni, in many cases, 
but it's actually a mixed-ethnicity city. The governor of 
Ninawah Province is the one that they are working with and 
we're working with. That's a daily exercise for General 
Townsend, General Votel, and for us, is to keep everybody 
aligned and focused on the job at hand, which is defeating 
ISIL.
    With respect to stabilization and reconstruction, we don't 
know what the collapse of ISIL's control over Mosul will look 
like. We've had a different experience in different cities. 
Obviously, no one wants to see street-to-street fighting in 
Mosul, but you don't know. There could be a large number of 
refugees, and we're preparing for that. Not USAID. You 
mentioned U.S. Government funding. That's essential. But, also 
the U.N.----
    Senator Reed. Right.
    Secretary Carter.--and other international aid agencies.
    I should say, by the way, that's one of the things I ask 
our coalition partners. I say, ``If you don't want to make a 
military contribution, or you don't have a strong military 
contribution to make, or it's problematic, for some historical 
or political reason, for you to make a contribution, a check is 
good to''----
    Senator Reed. But----
    Secretary Carter.--"the local people to help them 
reconstruct.''
    Senator Reed. But, essentially, you cannot--you can conduct 
kinetic operations, but the real, long-term effort is 
political/economic relief, refugee support, et cetera. Those 
are funds outside Department of Defense. A comprehensive 
approach to all these problems requires relief, not just from 
Department of Defense spending, but for other Federal agencies.
    Secretary Carter. It----
    Senator Reed. Is that correct?
    Secretary Carter. It is. The whole counter-ISIL thing is 
whole-of-government and----
    Senator Reed. Okay. Let me--going back also to your 
question about Northern Command. Northern Command is critical 
to defense of the United States, but, without a robust 
Department of Homeland Security, without adequate resources--
the FBI and for other domestic agencies--then you could be 
performing at peak efficiency, but the job would not get done. 
Is----
    Secretary Carter. We----
    Senator Reed.--that correct?
    Secretary Carter. It--that is true. We count on their 
support. We support them, as well. It's a whole-of-government 
effort, defeat of ISIL and----
    Senator Reed. General Dunford, do you concur, from your 
perspective?
    General Dunford. I do, Senator.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me start off by saying that we have rules in this 
committee that, when we have witnesses coming in, we're to get 
their written statement 48 hours in advance. We didn't get both 
of yours until 8:30 this morning. Now, we did a lot better with 
the chiefs last week. In fact, General Hayden was in, 72 hours 
in advance. I just think it's a good idea to pass on to others, 
before they come in, that we really do need to have that to 
conduct the--a hearing that's meaningful.
    When General Goldfein was here, he described what's needed 
for defense funding, and he talked about sufficient, stable, 
predictable funding. In your statement, Secretary Carter, you 
left the word ``sufficient'' out. I am concerned about this.
    Back during the Clinton administration, when they were 
actually trying to cut 400 out of the budget, we, in this 
committee, sitting in this--in these--in this dais here--were 
able to put 100 back in. You remember the famous bathtub chart 
that we used at that time. General Milley said, last week--and 
I think that he said it best--he said, ``The only thing more 
expensive than deterrence is actually fighting a war. The only 
thing more expensive than fighting a war is losing a war. We're 
expensive. We recognize that. But, the bottom line is, it's an 
investment that's worth every nickel.''
    I guess the question, just for a short answer of each one 
of you, is, Have our defense funding levels kept pace with the 
realities of the--our environment out there?
    General Dunford?
    General Dunford. Senator, I don't believe they have. That's 
why we've articulated an increased requirement in fiscal year 
2017, and we'll continue to reinforce those areas that we 
identified in 2017 for 2018. Of course, those--well, turn it 
over to Secretary----
    Senator Inhofe. I appreciate that.
    Do you agree?
    Secretary Carter. Yeah. I wanted to say----
    Senator Inhofe. All right.
    Secretary Carter.--that I agree with General Dunford, and 
what the Chief said, as well, and I'm--insufficiency belongs 
with instability. I'm sorry if we left that word out. Nothing 
intended there. The point that they were making, and that I 
would strongly echo, is, the effects of eight straight years of 
ending a fiscal year without an appropriation----
    Senator Inhofe. Yeah. You----
    Secretary Carter.--for the next--that is--has had a serious 
effect. We've tried to manage through it.
    Senator Inhofe. Right.
    Secretary Carter. We've done our best. But, it--that's just 
not----
    Senator Inhofe. I understand, Secretary.
    Secretary Carter.--the way to run an----
    Senator Inhofe. Now, you've been--let me compliment you--
you've been a real stalwart on your--in support of each leg of 
the nuclear triad. Had stated that the nuclear mission is the 
bedrock of our security. Today, we're spending about 3 to 4 
percent of our budget. However, the long-term plan shows that 
we're going to move up, within the decade, or sometime in the 
decade, to 6 to 7 percent. The question I would ask is--you 
know, General Dunford, with Russia and China actively 
modernizing their nuclear weapons and delivery system, we know 
what's happening in North Korea--do you think we should 
accelerate this so that we would reach the 6 to 7 percent much 
earlier, like now?
    General Dunford. Senator, I think, as you know, many of 
those programs, it's not just the function of accelerating the 
funding, it's how much time it takes for development. I'm 
confident, having looked at this very closely, that the path 
that we're on and the timing for the introduction of our new 
programs is about right. It balances both the budget, but it, 
more importantly, balances the operational readiness of those 
systems to be introduced at the----
    Senator Inhofe. Well, I think what you're saying is, even 
if you had more now, you could not spend it wisely. You need 
the--the course that we're on is adequate, in your opinion.
    General Dunford. Senator, that's exactly my----
    Senator Inhofe. All right.
    General Dunford.--assessment.
    Senator Inhofe. That's fine.
    The--I was in Ukraine right after their parliamentary 
elections, and I was--I've never seen Poroshenko or any of them 
as happy as they were at that time, how proud they were, for 
the time in 96 years, not having one Communist on the--in 
Parliament. As soon as that happened, Putin started killing the 
Ukraines and the--I would ask you this, Secretary Carter. If--
is deterrence of Russia in Europe a policy priority?
    Secretary Carter. It absolutely is. That's why we 
quadrupled the European Reassurance Initiative.
    Senator Inhofe. But, what would that--I would ask the 
question, then, Why are we not providing defensive lethal 
assistance to the Ukraine?
    Secretary Carter. Well, that is still on the table. It's 
been on the table for quite some time. And----
    Senator Inhofe. Well, it's more than on the table----
    Secretary Carter.--I want to emphasize, we do----
    Senator Inhofe.--with us, because it's in our----
    Secretary Carter. Well, it's going to depend upon what the 
Russians do with respect to Minsk. I just met with my Ukrainian 
counterpart a couple of weeks ago. A great guy, by the way. 
He's been doing this for a long time and is very dedicated, a 
good guy to work with. We talked about everything that are 
doing with them. We have training now. We've moved from their 
national----
    Senator Inhofe. Okay. And----
    Secretary Carter.--guard to their regular----
    Senator Inhofe. I don't want to be rude, Mr. Secretary, but 
my time is just about expired.
    Secretary Carter. Okay.
    Senator Inhofe. I just want to know if this--well, let me 
ask you, General Dunford. If we were to change our policy, what 
type of weaponry would be the--appropriate right now? You know, 
we have the Javelin anti-armor weapons. What would be the right 
weapon? You're both fully aware that, in our defense 
authorization bill, we address this issue, because we support 
lethal defense weapons. General Dunford?
    General Dunford. The critical capability areas the 
Ukrainians have identified include fire support, their 
artillery capability, as well as their anti-armor capability.
    Senator Inhofe. Yeah, and do you agree with that?
    General Dunford. That's a capability gap, I agree with 
that.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join in thanking both of you for your 
extraordinary service and for your very forthright answers to 
our questions here.
    General Dunford, is there any question in your mind, any 
doubt, that Russian planes were responsible for attacking the 
United States--the U.N. convoy that was trying to deliver aid 
to Aleppo?
    General Dunford. Senator, I don't have the facts. What we 
know are, two Russian aircraft were in that area at that time. 
My judgment would be that they did. There were also some other 
aircraft in the area, that belonged to the regime, at or about 
the same time; so, I can't conclusively say that it was the 
Russians, but it was either the Russians or the regime.
    Senator Blumenthal. Well, it sounds to me like you're 
saying that their responsibility was demonstrated beyond a 
reasonable doubt.
    General Dunford. Senator, there's no doubt in my mind that 
the Russians are responsible. I just don't know whose aircraft 
actually dropped the bomb. I would certainly associate myself 
with the comment that you made earlier, that, yes, it is the 
Russians that were responsible.
    Senator Blumenthal. Which is a war crime. I'm not asking 
for your legal judgment, knowing that you would probably 
disclaim your expertise as a lawyer, but you would agree with 
me, as a layman, as a military person, that that act 
constituted a war crime.
    General Dunford. It was an unacceptable atrocity, Senator.
    Senator Blumenthal. Would you agree with Secretary Kerry in 
contending that what ought to be done is a grounding of all 
aircraft in certain areas of Syria, including that one?
    General Dunford. I would not agree that coalition aircraft 
ought to be grounded. I do agree that Syrian regime aircraft 
and Russian aircraft should be grounded.
    Senator Blumenthal. Would you agree with--apparently, the 
growing strain of thought in the administration, that the 
Syrian Kurds should be armed?
    General Dunford. Senator, we're in deliberation about 
exactly what to do with the Syrian Democratic Forces right now. 
We have--providing them support. They are our more--most 
effective partner on the ground. It's very difficult, as you 
know, managing the relationship between our support for the 
Syrian Democratic Forces and our Turkish allies. We're working 
very closely with our Turkish allies to come up with the right 
approach to make sure that we can conduct effective and 
decisive operations in Raqqa with the Syrian Democratic Forces 
and still allay the Kurdish--the Turkish concerns about the 
Kurds' long-term political prospects.
    Senator Blumenthal. If those concerns can be allayed, and 
even if they can't be allayed, would you agree that arming the 
Syrian Kurds presents an opportunity for us, as a military 
option, to be more effective in that area?
    General Dunford. Senator, I would agree with that. If we 
would reinforce the Syrian Democratic Forces' current 
capabilities, that will increase the prospects of our success 
in Raqqa.
    Senator Blumenthal. In terms of the Russian responsibility 
for what you have absolutely correctly termed ``an atrocity,'' 
a war crime in that area, what can the United States do? What 
are some of those military options that the Chairman asked 
about?
    General Dunford. Senator, I'd prefer to talk to you in 
private about military options that might be being discussed as 
future options the President may have. I think right now 
managing the Russian problem is largely a political/diplomatic 
problem, and that's what Secretary Kerry and the President are 
dealing with.
    Senator Blumenthal. Let me turn--Mr. Secretary, you 
mentioned that there are three areas--the fiscal, the over-
regulation or micromanaging, and much needed reforms, as you 
characterized them. Could you give us your priorities as to 
what those reforms would be?
    Secretary Carter. I have spelled--I have a number of 
concerns, which I spelled out at great length in a letter to 
the committee. I really look forward to working with you to 
resolve them. There are a number of them. They're serious 
concerns that I have for provisions in the bill. I'd like to 
work all of these--I think where we have common intentions, 
work them to a place where I can support an NDAA that the 
President would sign. That's where I'd like to get with you all 
by the time you return, in November.
    Senator Blumenthal. I would welcome that opportunity. I'm 
just about out of time. This topic is immensely important, 
because it involves effective use of resources. We talk a lot 
about what the levels of resource should be, but managing them 
effectively is very important.
    As to the Syrian conflict, to both of you, I don't need to 
emphasize how desperately serious the humanitarian catastrophe 
is in Syria. The Chairman has rightly referred to the numbers 
killed and displaced. It is, as Secretary Kerry right termed 
it, probably the biggest humanitarianism catastrophe since 
World War II, and the United States bears a responsibility to 
use its military forces to stop the bloodshed and the needless 
and senseless killing of innocent civilians there.
    Thank you very much for your testimony today.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would share that thought. The situation in Syria is a 
colossal disaster. I do not believe it had to happen. I believe 
a wise statesman could have foreseen some of the difficulties 
we're facing today. We should have been more cautious and 
careful in our declarations of how we expect Syria to develop 
over the years. It hasn't developed like President Obama 
projected. Disaster has been the situation.
    With regard to the sequestration issue, Mr. Secretary, I'm 
trying to contain spending on all our accounts. I've come to 
believe that we have to have more defense spending. We've 
exceeded sequestration, I guess, for the last two years. But, I 
guess my question to you is--Senator McCain has proposed an 
increase in defense spending. All the items that he proposed 
are things the Defense Department have said they need. Is it 
your position that the--and is it the President's position--
that we will not spend that additional money for the Defense 
Department unless at least an equal amount of money is spent on 
the Commerce Department, the EPA, and other Government 
agencies?
    Secretary Carter. Well, what--I'll speak for myself--what I 
can't support, and won't support, is anything that moves 
towards instability. That means towards sequestration. That 
means away from bipartisanship. We submitted a budget that was 
consonant with the bipartisan budget agreement. That's what we 
did.
    Senator Sessions. Well----
    Secretary Carter. Eight months----
    Senator Sessions. Okay. I understand.
    Secretary Carter. We did that----
    Senator Sessions. It----
    Secretary Carter.--a few months into the bipartisan 
budget----
    Senator Sessions. All right.
    Secretary Carter.--agreement. I--the--I can't--I don't 
control this. I simply approve it.
    Senator Sessions. It's the President's decision, 
ultimately. I understand that. What he's saying, in leading the 
Democrats, and they're saying, not only do we have to bust the 
budget for the Defense Department, we have to bust it an equal 
amount for nondefense spending. That's the problem we have 
today. That's why we don't have a bipartisan agreement.
    If we can go on to the next subject----
    Secretary Carter. Well, there is a bipartisan--if I may say 
so, there is a bipartisan budget agreement, and that is what 
we----
    Senator Sessions. Well----
    Secretary Carter.--submitted our budget in accordance with, 
whatever, eight months ago. Now----
    Senator Sessions. Well----
    Secretary Carter.--the fiscal year ends, and there's no----
    Senator Sessions. Well, we'll have to----
    Secretary Carter.--there's no budget on that basis.
    Senator Sessions.--to avoid a Government shutdown. The 
leadership of the President and his determination to compromise 
has bitterly been reached. I wish we could have supported 
Defense without going further.
    Mr. Secretary, Secretary Rumsfeld, Secretary Gates, and you 
have criticized our allies in Europe about their unwillingness 
to even meet their minimum commitments to defense. I suppose 
you still believe they should meet those minimum standards, do 
you not?
    Secretary Carter. Yeah. Yeah, I absolutely do. They said 
that----
    Senator Sessions. You've said that before. But, this 
European Reassurance Initiative--a European official told me, 
``Why did not the United States demand that Europe increase 
their defense spending at the same amount we're increasing our 
defense spending for Europe in the European Reassurance 
Initiative?"
    Secretary Carter. Well, all I can tell you is, yes, I am, 
in a long tradition--and it actually goes back before----
    Senator Sessions. My question is, Why did you not tell the 
Europeans----
    Secretary Carter. I did.
    Senator Sessions.--and----
    Secretary Carter. I did. We've been talking----
    Senator Sessions. Well, we don't have a commitment from 
them to match that amount of money, do we?
    Secretary Carter. Well, it's complicated, because some--
each of them has made a contribution to European Reassurance, 
but you're--in terms of aggregate spending, they have a 
commitment, which not many of them have met, Senator, but a few 
have----
    Senator Sessions. Four out of----
    Secretary Carter.--which is to meet----
    Senator Sessions.--twenty-eight countries are at the 
minimum.
    Secretary Carter.--which is to spend two percent of their 
GDP. Important major countries in Europe aren't even doing 
that. That's unacceptable.
    Senator Sessions. With----
    Secretary Carter. It means that Europe--too many European 
militaries have made themselves incapable of independent----
    Senator Sessions. Well----
    Secretary Carter.--military activity----
    Senator Sessions.--I'll just say this. For the last 8 to 12 
years, they've continued----
    Secretary Carter. Okay.
    Senator Sessions.--on this, and we've said it, and 
nothing's happened. It's time for something to happen from 
Europe.
    Let me ask you, really, about the Syrian situation. It's 
such a disaster. I mean, we've got hundreds of thousands dead, 
six million refugees, and I don't see an end in sight. General 
Dunford just said that Assad is not leaving anytime soon. Five 
years ago, the President said, ``Assad has to go, and is 
going.'' He did not go. This is all a result of that. Now we're 
making some progress, I understand, against ISIS [Islamic State 
in Iraq and Syria]. What kind of agreement--what kind of end do 
you see, Mr. Secretary, for this disastrous conflict? How can 
we see an end to it? What do you foresee, and what's our goal?
    Secretary Carter. We are making progress in the counter-
ISIL campaign in Iraq and Syria. In western Syria, where the 
civil war rages----
    Senator Sessions. No, no, no. I'm asking, What is the goal 
of the United States----
    Secretary Carter. The goal of----
    Senator Sessions.--of America----
    Secretary Carter. The goal----
    Senator Sessions.--for Syria?
    Secretary Carter. The goal of United States policy in Syria 
is to end the Syrian war--civil war. It has been that for a 
long time. That means a end to the violence there. That's--and 
also a political transition from Assad to a government that 
includes the moderate opposition and that can run the country. 
Our approach has been a political one----
    Senator Sessions. The problem is--let me ask you this. It 
seems to me that the problem is that, with our support, ISIS is 
being damaged, but they're not utterly destroyed. If some sort 
of peace agreement is reached, some sort of cease-fire, and the 
United States and others reduce their presence there, can you 
assure us that ISIS, the toughest, meanest group in Syria, 
won't be able to destabilize any government that might be put 
together?
    Secretary Carter. Well, let me be clear about something, 
which is, our counter-ISIL campaign is not on the table or part 
of the discussions of Secretary Kerry with the Russians. That 
is about the Russian activity, Syrian activity in western 
Syria. Our counter-ISIL campaign, we are conducting, and will 
conduct. You're right, we are making progress in it. That's----
    Senator Sessions. Well----
    Secretary Carter.--going to go on.
    Senator Sessions. I don't see----
    Secretary Carter. But, what Secretary Kerry's trying to 
do--and again, as we sit here today, it's very problematic--
but, what he's trying to do is exactly what you're calling 
attention to, namely to end the humanitarian disaster 
occasioned by the civil war in Syria, and to promote a 
political transition.
    Senator Sessions. Well----
    Secretary Carter. He's trying to work with those----
    Senator Sessions.--let me wrap up and----
    Secretary Carter.--who have influence----
    Senator Sessions. My time's over----
    Secretary Carter.--there, and they're not----
    Senator Sessions.--Mr. Secretary.
    Secretary Carter.--and they're not exercising that 
influence.
    Senator Sessions. I believe we could have done a better job 
with safe zones. I'm worried about the area in Iraq. I've 
talked to you previously and personally about it. We need a 
active American policy, a leadership in the world. But, we 
cannot establish all these governments, and run them, and 
assure how they'll come out in the end. We can't occupy these 
countries for decades to try to assure that. That's just not 
realistic.
    A wise statesman would have seen the danger in Syria. A 
wise statesman would have seen the danger in Libya. A wise 
statesman should have seen what could have happened in Egypt. 
Except for 30 million Egyptians going to the public square and 
driving out the Muslim Brotherhood, we could have a disaster 
there.
    We've got to be more realistic in our foreign policy. We've 
got to know what we can do to affect, positively, the world and 
what we cannot do. We're not able to ensure democratic 
governments throughout this region of the world. We're now 
facing colossal humanitarian disaster, and it's been bubbling 
for a number of years. There's no easy solution to get out of 
it. I wish it were, but there's not.
    Thank you.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator King.
    Senator King. Thank you.
    An observation about the budget. A year and a half ago, we 
had a bipartisan agreement on the budget number. Then 
allocations were made to the Appropriations Committee, and they 
went through their process. I thought, ``Finally, some 
stability. We can have appropriations.'' But, I'm reminded of 
an old saying in Maine, ``He's so dumb, he could screw up a 
two-car funeral.'' We had the numbers, we had the allocations, 
we had the agreement, and yet, here we are at a Continuing 
Resolution.
    I think we ought to be clear about what it is that's gotten 
us here. There is a dispute, as Senator Sessions pointed out, 
on the numbers. But, that's the kind of thing that can be 
negotiated. If there's an $18 billion been added to Defense, 
and there are people that feel that, on the domestic side, 
there also needs to be increases in areas like the FBI, for 
example, that's a legitimate area that reasonable people in an 
afternoon should be able to figure out.
    What's really holding things up, as I understand it, are 
riders that have nothing to do with the budget, that have to do 
with policy preferences of various individuals. A perfect 
example is the National Defense Authorization Act, which, my 
understanding is, is now being held up by the sage grouse. The 
sage grouse is what is stopping the finalization of the 
National Defense Authorization Act. A very important issue to a 
lot of people, I'm not denigrating it. I know it's very 
important in the West. But, it should not be the thing that 
holds up the National Defense Authorization Act and the support 
of our men and women all over the world.
    I think we ought to be clear about what the problem is, 
here, that trying to load on a lot of political baggage to both 
the appropriations bills and the national defense bill is what 
has gotten us to this place. The numbers have been agreed on by 
a year--for a year and a half. If we want to increase them, 
let's discuss that and work out an agreement. That should be 
easy. But, to be holding up this-- and the--similar to the sage 
grouse, other kinds of those issues are why, my understanding 
is, is holding up the appropriations process.
    We're doing a Continuing Resolution even though we've had a 
number agreed on for two years--for a year and a half. It's 
just--you know, this institution, as Senator Lindsey Graham 
pointed out last week, is one of the greatest threats to 
American security. He went through a litany of how we've taken 
more troops off the battlefield, more airplanes out of the air, 
more ships out of the ocean than any enemy has done by our 
inability to work out what ordinary people on the street would 
think people ought to be able to figure out in a relatively 
short period of time.
    If you can find a question in there, you're welcome to it.
    Secretary Carter. I would like to say one thing, which is 
just to repeat that it is on the basis of that bipartisan 
budget agreement, and the stability it promised, that we 
submitted our budget.
    Senator King. Right.
    Secretary Carter. Now--and that--we figured that was the 
best the country could do on a bipartisan basis. That's the 
only way we've had stability in the past.
    Now, I'm asked about this proposal and that proposal that 
would depart from that, and my answer is, in all seriousness, 
with responsibility for trying to shepherd this institution, 
is--I have to look at what I think can be delivered----
    Senator King. Sure.
    Secretary Carter.--on a stable basis. That was what the 
bipartisan budget agreement is, and that is the--that has been 
the foundation, and remains the foundation, for our budget 
submission. We did a very good job, in my judgment--and this is 
the senior leadership of the Department--to manage responsibly 
within that budget. We've done that. That's the budget we 
submitted, months ago----
    Senator King. Mr. Secretary, I----
    Secretary Carter.--for this fiscal year. Now the fiscal 
year ends, and--so, we've played it very straight.
    Senator King. My point is, we had a budget agreement, we 
had a number, and we still can't get it done.
    Let me ask an entirely different question.
    Next week, we are probably going to be dealing with a veto 
of the bill that would allow people to sue Saudi Arabia, the 
so-called Justice Against Sponsors of Terrorism Act. General 
Dunford, do you have--or both of you--do you have concerns 
about what the effect on our troops, our liability around the 
world, would be if that bill becomes law?
    Secretary Carter. Let me--if I may, I'll say something 
first----
    Senator King. Sure.
    Secretary Carter.--and then General Dunford, if he wishes 
to.
    The--first of all, I completely associate myself with the 
intention of this, which is to honor the families of the 9/11 
perished. That is the origin of this. That's--is a worthy one.
    I--it is a law enforcement matter, and, I have to say, 
we're--we--we're not the ones who are dealing with it, nor 
are--am I, at least, an expert on it. But, you did raise one 
thing that I am aware of, which is a complication from--that 
would be a complication, from our point of view, namely that 
were another country to behave reciprocally towards the United 
States, that could be a problem for some of our servicemembers. 
That is, I'm told, a--something that we, in the Department of 
Defense, should be concerned about. You're referring to that. 
That's my understanding, as well.
    Let me ask the Chairman if he wants to add anything.
    General Dunford. Senator, the potential second-order effect 
the Secretary has raised is one that was--been brought to my 
attention. That's my concern, as well.
    Senator King. I think it would be helpful if you could give 
us more detail on that issue, because we're going to be having 
to make a decision, probably next week. I, for one, want to be 
sure I understand the full implications of that decision, not 
only on the victims' families, but also on other United States 
interests around the world. I'd appreciate it if that could be 
made available in the next few days.
    Thank you.
    Thank you, Mr. Chair.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
      
    Senator Reed. On behalf of the Chairman, Senator Ayotte, 
please.
    Senator Ayotte. Thank you, Chairman.
    I want to thank you both for your service and leadership 
for the country.
    You know, just to briefly weigh on this funding issue, 
what's been most disappointing to me, as someone who supported 
the bipartisan budget agreement, is that the defense 
appropriations bill passed within that cap set by the 
bipartisan budget agreement unanimously out of the 
Appropriations Committee. Both parties agreed with the funding 
on defense. Then it came to the Senate floor, and it's been 
blocked multiple times because it's being held hostage to other 
issues.
    Just to be clear, what you're asking for, it's there. It's 
just disappointing to people like me and others here, because 
the priority of defending this Nation and having the funding 
for our troops and what you need to do should be our priority, 
no matter what.
    You know, as I hear this kabuki dance, it's obvious. We 
passed an appropriations bill. It was completely bipartisan, 
within the budget caps. Why is it being blocked? I was proud to 
vote for it. I'd vote for it again tomorrow. I just wish we'd 
get it done for you and our men and women in uniform.
    I wanted to shift gears here and ask about Iran. General 
Dunford, does Iran continue to be one of the lead sponsors of 
terrorism around the world?
    General Dunford. They are, Senator. I describe their major 
export as malign influence.
    Senator Ayotte. Are they continuing to test ballistic 
missiles that is quite troubling to both us and our allies and, 
I think, in violation of U.N. resolutions?
    General Dunford. They are, Senator, as well as provocative 
behavior in the Gulf.
    Senator Ayotte. Exactly, that our military has encountered 
in the Gulf just recently.
    General Dunford. That's right, Senator.
    Senator Ayotte. One of the things that I wanted to ask 
about is--recently, we learned that the $1.7 billion in cash 
relief has actually gone--that the administration has provided 
Iran--has actually gone directly to the Revolutionary Guard 
Corps. I don't know if you were aware of that. In fact, the 
Iranian parliament, or their equivalent of our--their 
legislative body passed a law that essentially said if there 
was a settlement, a legal settlement from a foreign country, 
which is how this $1.7 billion has been characterized, it would 
go directly to the military. Does that trouble you, that 
they're taking the proceeds that we're giving them and funding 
their military?
    General Dunford. Senator, I wasn't aware of it. It doesn't 
surprise me that the Republican Guard would have a high 
priority for funding inside of Iran. But, it certainly is 
troubling. The more funds that they have available, obviously, 
the more effective they'll be in spreading malign influence.
    Senator Ayotte. One of the things, as I look at this--this 
is our--you know, this relief that we're giving them, they're 
testing ballistic missiles, they--the money that they're 
getting--this isn't going to the Iranian people, it's going to 
their Revolutionary Guard Corps, that we know promotes 
terrorism and undermines stability around the world. As I see 
this situation, I don't see us taking any steps that we should, 
in terms of being aggressive in coming back, especially on the 
ballistic missile program and their terrorism issues. What 
should we be doing, General?
    General Dunford. Senator, there's two things that I'd draw 
your attention to. First is our posture in the Central Command, 
which is, in fact, their--both to deter Iran, but also to 
respond to Iran, should a response be required. Also, in the 
fiscal year 2017 budget--and I expect you'll see similar 
requests in the fiscal year 2018 budget--much of what we are 
focused on is dealing with what we describe as anti-access area 
denial. That's Iran's desire to keep us from moving into that 
area, and then operating freely within that area. Many of the 
programs, from a cyber perspective, from ballistic missile 
defense capability, strike capability, are all designed to deal 
with the threat of Iran in the region.
    Senator Ayotte. Let me just ask you. They're still testing 
ballistic missiles. Would you agree that's a grave threat and 
something that needs to be addressed, in terms of our security? 
This is all post-agreement, that they're doing this, agreed?
    General Dunford. Absolutely, Senator, and that's why we've 
identified them as one of the four state challenges that we 
benchmark our joint capabilities against.
    Senator Ayotte. One of the things I wanted to ask your 
thoughts on, General, is that we've learned about this $400 
million in cash that Iran got, that would be included in the 
$1.7 billion that I referenced, for release of the American 
hostages. Did you think that was a good idea? Were you 
consulted about that?
    General Dunford. Senator, that would, in the normal course 
of events, not be something that would be in my lane, so I was 
not consulted.
    Senator Ayotte. Well, do you think it's a good idea that we 
should exchange cash to a country like Iran, that you've 
already confirmed is one of the largest state sponsors of 
terrorism, in exchange for hostages? Because, as I look at this 
situation, they've now taken at least three more American 
hostages.
    General Dunford. Senator, I just don't know the details of 
the agreement that was made with Iran and what the nature of 
that money was. I--you know, on principle, I would prefer that 
we not provide additional resources to Iran.
    Senator Ayotte. On principle, you'd rather them not have 
more money. I mean, doesn't it worry you that, as we think 
about exchanging cash with a country like Iran--obviously, it 
was funneled through the European countries--and that, in fact, 
we're going to encourage more bad behavior from Iran, and we've 
seen some of it? Isn't that something we should be concerned 
about?
    General Dunford. Senator, before whatever arrangement was 
made, and after whatever arrangement was made, I'm under no 
illusion of what Iran is intending to do, nor are we not--nor 
are we--we are mindful of the capabilities that they're 
developing, as well.
    Senator Ayotte. Well, I hope--you know, I've introduced 
sanctions legislation on--to address their ballistic missile 
program. I think this ransom payment issue is just deeply 
troubling, and it's just causing further bad behavior from 
Iran. We know they've taken further hostages. I just hope that 
this administration will step up and finally address Iran's bad 
behavior.
    Senator Reed. On behalf of Chairman McCain, Senator Ernst, 
please.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being with us today and joining 
in the discussion.
    I'd like to start with just a few quick yes-or-no 
questions; very brief, please, gentlemen.
    For Secretary Carter, did you know that Khalid Sheikh 
Mohammed, the mastermind of the 9/11 attacks, and Ramzi Yousef, 
who masterminded and planned the 1993 World Trade Center 
attacks, utilized the Philippines as a safe haven for their 
planning and training? Yes or no?
    Secretary Carter. Senator, it's--I'll just say it to be--
I'll try your questions yes or no. It depends on whether they 
lend themselves to that. In this case, no, I was not aware.
    Senator Ernst. Okay. Yes, he did use it as a safe haven 
during that planning and training.
    General Dunford, did you know that Operation Enduring 
Freedom covered the Philippines in order to train and assist 
those local forces in the Philippines against al Qaeda-linked 
terrorist organizations?
    General Dunford. Yes, I did, Senator.
    Senator Ernst. Okay, thank you, General.
    For both of you, are you both aware that ISIS released a 
video this year encouraging fighters that can't get into Syria 
to head to the Philippines?
    Secretary Carter. I am, yes.
    General Dunford. I am, as well. I was in Manila last week, 
Senator.
    Senator Ernst. Wonderful. Thank you, General.
    Just like we're witnessing in the Middle East, and we have 
heard much of the discussion today focus on the Middle East. 
General, I appreciate you've spent time in Africa, as well, 
dealing with Islamic extremist groups. They are also in 
Southeast Asia. We are not spending much time talking about 
that. Groups like Abu Sayyaf, they're bonding together beneath 
the flag of ISIS. Yet, we really, like I said, don't seem to be 
focusing on this. The Philippine forces lost 44 of their 
special police in a single battle to these terrorist groups 
last year. Fifteen soldiers were killed in a single battle just 
last month. It's clear that this is a very real threat.
    President Obama admitted that we have underestimated the 
rise of ISIS in the Middle East. What I fear right now is that 
we are completely underestimating the rise of ISIS in Southeast 
Asia.
    Before the President went to Asia last month, I did send a 
letter to him and encouraged him to visit about how we can 
counter terrorism and counter ISIS in that region. I did urge 
him to bring up this issue with the President. Shortly after 
that, ISIS claimed another attack, killing 14 civilians.
    Secretary Carter, are you concerned with what we see as the 
rise of ISIS in Southeast Asia?
    Secretary Carter. I am. I'll say something, and then I'll 
ask the Chairman also if he'd chime in.
    When I talked about the metastasis of the cancer of ISIL, 
you're absolutely right that South Asia clearly is a place they 
aspire to spreading. I talk to our counterparts there who are 
concerned about it. We work with them. Just next week, I'm--
I'll be convening them in Honolulu on a number of issues of 
Pacific security, but one of them is going to be 
counterterrorism and countering ISIL. I'd say Malaysia, 
Indonesia, Singapore--you mentioned the Philippines, and other 
places, but those four come to mind. I've spoken to the Defense 
Ministers in each of those four countries. They have concerns, 
particularly about the possibility that ISIS could establish a 
foothold there. In some places, it's already troubled, in some 
way. There are places in all those countries. It could grab 
hold there.
    Senator Ernst. Absolutely.
    Secretary Carter. It is very much on our agenda.
    Chairman, please.
    General Dunford. Senator, I agree with your assessment and 
concerns. Last week, I met with 29 Chiefs of Defense in the 
Pacific, in Manilla, hosted by the Chief of Defense of the 
Philippine Armed Forces, and we discussed, broadly, the threat 
of extremism in Asia and what we need to do to deal with it.
    To your point, there's 1,000 foreign fighters, alone, we 
estimate have come from Indonesia into Syria and Iraq. There 
are hundreds that came from the Philippines. Other countries, 
as well, are dealing with that issue.
    I think, although it's not very visible, there's a 
significant amount of activity going on to build the capacity 
of our partners in the Pacific. We're trying to work with them 
to develop a framework within which they can share information, 
share intelligence. We have a significant maritime domain 
awareness initiative, which will help them understand the 
movement into the sea. We see, for example, significant 
cooperation between the Philippines, Malaysia, and Indonesia in 
the Sulu Sea associated with the movement of people and so 
forth, you know, in--as part of this violent extremist problem.
    It is a different fight. I call it a requirement for a 
regional approach in Southeast Asia, as opposed to a coalition, 
which is required in Syria and Iraq. But, we are absolutely 
putting pressure on ISIL in South Asia. We are absolutely 
working very closely with our partners. Frankly, the limit of 
the support we provide is often what they are willing to accept 
politically. We're very keen, and we will bring to the 
President any requests for support. I think, as you know, 
Senator, we are providing some support now to the Philippines--
intelligence support and----
    Senator Ernst. Absolutely.
    General Dunford.--other support, to help them to deal with 
the extremist problem that they have in the south.
    Senator Ernst. Thank you, General.
    Thank you, gentlemen.
    I just really want us to ensure that we are not taking our 
eyes off of that region. We seem to focus very heavily, as we 
should, on the Middle East and Africa, but we do have other 
footholds for ISIS. We do have five new bases going into the 
Philippines, and I think it's important that we really focus on 
these counter-ISIS opportunities.
    Thank you, gentlemen, very much.
    Thank you, Mr. Chair.
    Senator Reed. On behalf of the Chairman, let me recognize 
Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Secretary Carter and General Dunford, for being 
here today and for your service to the country.
    General Dunford, at one point before this committee, you 
indicated that you believe Russia poses the greatest threat to 
the United States. Do you still feel that way? If so, can you 
identify where you think those threats are most concerning?
    General Dunford. Senator, I can. Thank you. I raised that 
issue--I was asked before the committee, what did I think the 
most significant challenge to the United States was. Of course, 
we talk about all four state challenges and one violent 
extremist. But, when I look at Russia's nuclear capability, 
when I look at their cyber capability, when I look at their 
developments in undersea warfare, when I look at their patterns 
of operation--how often they've operating, the locations 
they're operating--it's a pattern of operations that we haven't 
seen in over 20 years. When I look at Mr. Putin's activities in 
the Ukraine, in Crimea, in Georgia, that causes me to say that 
a combination of their behavior as well as their military 
capability, again, in some high-end areas, would cause me to 
believe that they pose the most significant challenge, 
potentially the most significant threat to our national 
interests.
    Senator Shaheen. Well, thank you.
    I very much appreciate, Secretary Carter, your raising the 
European Reassurance Initiative as one of the programs that's 
threatened if we can't get agreement in Congress on funding, 
and share that concern, especially because of the potential 
threat that Russia poses on--in Eastern Europe.
    One of the things that Secretary Kerry said yesterday was 
that we should consider grounding all military aircraft in key 
areas of Syria in response to what appears to be a blatant 
Russian bombing of the humanitarian aid that was scheduled to 
go into Syria. They have denied, of course, but, I think, as 
we've seen in the past, we can't really believe what they say.
    I would ask you, Secretary Carter, do you agree that that 
is one avenue that we could take? What would be the followup 
position if they continue to fly aircraft?
    Secretary Carter. Well, I can't speak for Secretary Kerry. 
He is trying to get on the--for the Syrian and Russian air 
force, exactly that, a cessation of hostilities and a--which 
means a grounding of their aircraft, and not continuing to use 
them, particularly in a clumsy way--it's a nice word--in the 
Syrian civil war.
    There's no question--can be no question of grounding U.S. 
aircraft that are conducting strikes against ISIL. We do that. 
We do that with exceptional precision and care and concern for 
civilian casualties that no other country can match. That's 
true of our whole coalition in all the strikes we conduct.
    They're not in the same category at all. We need to 
continue with our air campaign to defeat ISIL.
    Let me ask the Chairman if he wants--anything to add.
    General Dunford. Senator, the most significant concern I 
would have--and I don't know what the proposal is--but, I would 
not--first of all, there's no reason to ground our aircraft. 
We're not barrel bombing civilians, we're not causing 
collateral damage. We have momentum, as we've all discussed 
here earlier today, against ISIL right now. I think what the 
Secretary is saying, I fully associate myself with. We need to 
keep the pressure on ISIL. The number-one priority that we have 
is disrupting their ability to plan and conduct external 
operations from Syria. The cost of taking pressure off of ISIL 
right now exposes us to risk that I think is not acceptable.
    Senator Shaheen. In the absence of some other action that 
we take, along with our allies in that area, do you see 
anything changing the dynamic of the civil war in Syria? I 
mean, I--I believe it's going to take some other outside--some 
other intervention in order to change the direction of this 
war. Right now, there's nothing happening that would do that.
    Either one of you.
    Secretary Carter. Well, I'll start.
    The direction in which Secretary Kerry is trying to get the 
Russians to move, which I understand fully, is the direction 
they always should have been in Syria, which is towards putting 
an end to the civil war, not pouring gasoline on it, and not 
emboldening Assad to be intransigent----
    Senator Shaheen. But----
    Secretary Carter.--let alone conducting an air campaign, 
which is--doesn't adhere to the standards that ours does.
    Senator Shaheen. But--I'm sorry to interrupt, Mr. 
Secretary, but I guess--I appreciate what you're saying, and 
that that should have been Russia's position all along, but 
clearly----
    Secretary Carter. That's what Secretary Kerry's trying to 
get them to.
    Senator Shaheen. Right. But, we have had no success, after 
five years of civil war. What I'm asking is, What other options 
do we have that might change the trajectory of what's happening 
in Syria?
    Secretary Carter. Well, I'm--again, I'm not going to try to 
get in the middle of these negotiations, but I think that 
Secretary Kerry is trying to find a way to achieve those 
objectives. They're--those are the right objectives to have. As 
we sit here today, the Russians do not, and the Syrians do not, 
seem to be moving in that direction, as he said yesterday.
    Chairman, you want to add anything?
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator Cotton.
    Senator Cotton. Thank you.
    Mr. Secretary, I share your regret about the Department 
starting the fiscal year with another Continuing Resolution. I 
also regret that the Democrats have filibustered the Defense 
appropriations bills three times. Do you share my regret over 
that fact?
    Secretary Carter. I can't speak to the internal 
deliberations of the Congress. The only thing I'd say----
    Senator Cotton. Well, that's a public vote. That's not an 
internal----
    Secretary Carter. Well, let me just say, we know that the 
only way to get budget stability is with everybody coming 
together. I see proposals from this side and that side, and 
this committee and that committee, and they're all different. 
We submitted a budget, in accordance with the bipartisan budget 
agreements just months after a two-year bipartisan budget 
agreement was agreed. That's what we did. That is, in my 
judgment, the only way we can get true stability.
    I'm--I am continuing to support the position of the 
bipartisan budget agreement. Anything that comes out of the 
Congress that is supported, an appropriation, at last, for 
fiscal year 2017 would be good for the Department of Defense. I 
hope we get such a thing----
    Senator Cotton. Do you----
    Secretary Carter.--in November.
    Senator Cotton. Do you----
    Secretary Carter. But, the reality is that these things 
have to be supported by both parties, both houses, and signed 
by the President. I'm the Secretary of Defense. I can't make 
all that happen. But, I know that's what has to happen in order 
for us to get an appropriation. Eight years in a row, straight, 
that hasn't----
    Senator Cotton. Okay.
    Secretary Carter.--happened.
    Senator Cotton. I understand. My time is limited here.
    Do you believe, if a bill is passed out of the House of 
Representatives that has a larger increase for defense spending 
than it does for nondefense discretionary spending, that the 
President should sign that legislation?
    Secretary Carter. I can't speak for the----
    Senator Cotton. Mr. Secretary, you are the----
    Secretary Carter. I'm going to give you----
    Senator Cotton.--Secretary of Defense.
    Secretary Carter. You asked the question----
    Senator Cotton. You are not the Director of the National 
Endowment of the Arts. You're not the Secretary of Housing and 
Urban Development. You are the----
    Secretary Carter. That's where I was----
    Senator Cotton.--Secretary of Defense.
    Secretary Carter.--headed. That's exactly where I was 
headed. I'm not. Therefore, I can't speak for the needs of 
those departments. I do know that some of the national-
security-related departments, which are outside of the defense 
appropriation----
    Senator Cotton. You stated that----
    Secretary Carter.--with which I am----
    Senator Cotton.--stated that testimony up to here----
    Secretary Carter.--need their funding----
    Senator Cotton.--and others----
    Secretary Carter.--as well. It's not a matter of 
indifference to me whether the government as a whole is funded. 
It's certainly not a matter of indifference to me whether an 
appropriation that can be supported by everyone up here so that 
it passes, and passed by the President, is done, or not. That's 
what I have to be for. Because I'm for getting a budget and for 
budget stability. I just observe--I'm not a participant, I'm an 
observer--that the only way that happens is not with this 
proposal and that proposal, it's with a bipartisan budget 
agreement. That's the line we tried to hew to. We're just 
playing it as straight----
    Senator Cotton. I----
    Secretary Carter.--as we can.
    Senator Cotton. I understand. You were the Deputy Secretary 
of Defense for Secretary Panetta. Is that correct?
    Secretary Carter. Yes.
    Senator Cotton. On page 374 of his memoirs, he states, ``In 
fact, as my efforts to fight the sequester began to get some 
attention, a few congressional Democrats urged me to emphasize 
the danger of cuts to domestic programs, not just defense. To 
my amazement, the rest of the Cabinet, including members 
responsible for those parts of the budget, largely stayed out 
of the debate. That left me to argue for all of us, which I 
tried to do, even when I found myself frustratingly alone.''
    Have congressional Democrats urged you to advocate for 
increased domestic spending in addition to defense spending?
    Secretary Carter. Well, first of all, I should say, you 
know, few had the experience with bipartisan budget management 
than Secretary Panetta. I don't remember that passage of his 
memoirs, but that sounds--it sounds like his----
    Senator Cotton. Do you remember----
    Secretary Carter.--his voice. But----
    Senator Cotton. Do you remember----
    Secretary Carter.--I've not found myself in the same 
circumstance, except I am in the same circumstance he was, 
namely--and I guess that was 2013--facing the prospect of 
sequester. He didn't like it. I didn't like it. I don't think 
any Secretary of Defense liked it. I think it's awfully unfair 
to our troops to do this again and again and again and again. 
That's what we've been warning about. That's where I have been. 
That's what our chiefs did last week. I'm just hoping that, 
when everybody comes back in November, Congress reconvenes, 
that we get an appropriation that everybody can stand behind 
and that moves the country forward.
    Senator Cotton. General Dunford, are we in great-power 
competition with China?
    General Dunford. We are, Senator.
    Senator Cotton. Secretary Carter, are we in great-power 
competition with China?
    Secretary Carter. We are, absolutely right.
    Senator Cotton. Thank you.
    One final question. Are you engaged in any planning, 
deliberations, internal consultations of any kind to transfer 
control of the detention facility at Guantanamo Bay to the 
Department of Justice?
    Secretary Carter. No. I'm not.
    Senator Cotton. Thank you.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. I'm going to take a deep breath. I'm 
always proud to serve on this committee, because it's an oasis 
of bipartisanship in the Senate. I hope we keep our eye firmly 
on our ability to lead in a bipartisan way to get the funding 
for our military that we really need, including being honest 
about budgeting, not putting base budget items in OCO [Overseas 
Contingency Operations] so that we can pretend that we're not 
spending money because OCO is off the budget books. I think 
that the Chairman has done a remarkable job to try to keep us 
in an honest place as it relates to budgeting. I respect him 
for his effort in that regard. I know I speak for many on our 
side of the aisle, including, I hope--I know, the Ranking 
Member, that we're going to continue to try to work as hard as 
we can in a bipartisan way to get your budget done and make 
sure we're not trying to come back in six months and fund the 
war effort because we've played budget games at the eleventh 
hour with OCO.
    My question today--we've got $1.3 in the fiscal year 2017 
budget for train-and-equip for local opposition forces and for 
the Iraqi Security Forces. I'd like some kind of brief update, 
if I could, on the screening process. How are we determining 
who--I mean, one of our challenges has always been in Syria. 
Who do we help? Are they really the good guys? Obviously, we 
had one massive failed attempt to try to put together a force 
on the ground through train-and-equip. Now I know we've gone 
back. I was in Jordan and visited with our leaders over there 
about the effort that's ongoing, working with smaller groups 
and testing them first and making sure they're doing the right 
thing. But, if you could briefly talk about how we are doing 
the screening process for those resources, I'd appreciate it.
    Secretary Carter. Sure, Senator. I'll start. Thank you. 
Basically, it is as you say. Namely, we have the same vetting 
process going on--and I'll as the Chairman to describe that--
but, the train-and-equip program that was a disappointment when 
it started is now--we have a--changed completely our approach 
to it. It is as you describe; namely, not trying to create de 
novo forces that will go in and oppose ISIL, but identifying 
forces that are, and then enabling them. That has been 
successful. We're going to continue to do that. It does involve 
vetting to our standards, which is required of us. But, the 
program has changed. It needed to change. It did change, and is 
now on a much successful footing.
    I should also thank the committee, in the spirit of what 
you said earlier, about--for their budgetary support in a 
timely way to our requests for that. Much appreciate that, as 
well.
    If--I'd ask the Chairman, also.
    General Dunford. Senator, just some of the mechanics. 
First, individuals who we are working with are vouched for by 
their tribal leadership. We do biometrics. We do a detailed 
interview process. We watch closely their behaviors. I would 
say our leaders over the last several years have been very, 
very good at literally separating wheat from the chaff as we go 
through the process of growing Syrian opposition--Syrian or, as 
the case may be, forces in Iraq--tribal forces in Iraq.
    The vetting process, I think, is fairly sophisticated. 
Again, it's built on 15 years of lessons learned right now. A 
combination of the technology that we have available with 
biometrics, but also some intangibles that include, again, 
tribal leadership, behavior identification, those kinds of 
things.
    Senator McCaskill. I also wanted to--to both of you, I 
appreciate your continued commitment in the area of sexual 
assault. I know we have put a lot on the military. I think we 
have counted up--literally, there are hundreds of changes we 
have made over the last few years to the Uniform Code of 
Military Justice. I did want to hone in on one area, because, 
as we looked at all of the reports in the last year, lots of 
good news--incidents down, reporting up--but that retaliation 
thing is an issue. You issued a report in April which 
highlighted standardizing the definition of ``retaliation,'' 
which is tough, because, you know, sometimes it's in the eye of 
the person who's being retaliated upon. Getting a standard 
definition, I think, is really important. We put, in this 
year's NDAA [National Defense Authorization Act], a provision 
to make retaliation its own offense. I wanted to find out, What 
kind of progress are you making on trying to come up with a 
standardized definition of ``retaliation'' in this context?
    Secretary Carter. Thanks very much, Senator. Let me just 
begin by saying--by thanking you and all the members of this 
committee for bearing down on this problem. You know, I'm 
really proud of the way our forces conduct themselves, but 
there always--there are people who don't conduct themselves up 
to that standard. We can't have it. It's objectionable anywhere 
in society, but, in the profession of arms, it's particularly 
objectionable. I very much appreciate your efforts.
    You're right, retaliation is something that we have begun 
to realize is a dimension of this problem that was under-
attended. We had done good work, I think, at the law 
enforcement part, attending to victims, and at prevention. 
Retaliation--the reason why, definitionally, it's complicated, 
but we'll get there, is that there are a number of different 
ways that retaliation takes place, some of them quite subtle, 
but serious. One is, you know, a superior who holds it against 
somebody that they reported a sexual----
    Senator McCaskill. Right.
    Secretary Carter.--assault, which is----
    Senator McCaskill. Failure to promote.
    Secretary Carter.--completely unfair. A little more 
indirect is people who are getting taunted----
    Senator McCaskill. Social----
    Secretary Carter.--via social----
    Senator McCaskill.--retaliation.
    Secretary Carter.--media and so forth. We need to define 
these in such a way that they're legally appropriate, which you 
would understand, but that also cover the full gamut of things 
that a commonsense definition of ``retaliation'' would include. 
We are working towards that. It is complicated, but we'll get 
there. I very much----
    Senator McCaskill. How soon----
    Secretary Carter.--appreciate----
    Senator McCaskill.--do you think you'll get there?
    Secretary Carter.--your effort. I believe that the update 
on that is due by the end of the year--of this year. I did--the 
report that I submitted to you was earlier in this year. We 
should be able to get that done. Of course, we'll communicate 
that to the committee and get your views. But, I appreciate 
your sticking with us on this issue.
    Senator McCaskill. Thank you both.
    Chairman McCain. Secretary, I'd just like to point out 
that, if it were not for the work of the women on this 
committee in a bipartisan basis, we would not have achieved the 
results that we have. I am deeply appreciative for the 
bipartisan effort that's gone on, and continues to go on, in 
this committee to address an issue that you know is still with 
us. It may be to a lesser degree, but is still with us.
    Senator Tillis.
    Senator Tillis. Good morning, gentlemen.
    Secretary Carter, I want to go back to the comments that 
Senator Ayotte made about--I was someone else who supported the 
bipartisan budget agreement. Very disappointed that, on three 
different occasions, the defense appropriations bill has been 
filibustered. What--not talking about any other discussions 
about appropriations. You're familiar with our defense 
appropriations bill, right? The one that's been filibustered on 
three different occasions. Do each of you think that passing 
that bill would be helpful with respect to completing your 
mission within your lanes?
    Secretary Carter. Well, I'm going to go back to where I 
started, which is, there's no particular bill. I--I'm aware of 
three or four different versions----
    Senator Tillis. Are you familiar with the measure that 
we've tried to get on----
    Secretary Carter. Well, let me----
    Senator Tillis.--in the chamber on three different 
occasions----
    Secretary Carter. I'm aware of----
    Senator Tillis.--that were filibustered?
    Secretary Carter.--several different measures, both in the 
Senate and the House.
    Senator Tillis. No. Secretary Carter, this is a specific 
thing that we're trying to get on in the chamber of the Senate. 
Are you familiar with a bill that passed out of 
appropriations--the defense appropriations bill--that we've 
tried to get on in the chamber?
    Secretary Carter. I am. I've--am aware of the one that came 
before, yes.
    Senator Tillis. Are you--is anyone on your staff familiar 
with an appropriations bill that we're trying to get on in the 
Senate chamber?
    Secretary Carter. I'm sure they are.
    Senator Tillis. Okay. What would they generally say about 
the passage of that bill with respect to you being able to 
complete your mission? In your lane. I'm not talking about any 
of the other appropriations bills.
    Secretary Carter. Well, I think what they'd say is that if 
the Senate and the House pass an appropriations bill that 
comports--that the President can sign, we will get an 
appropriations bill. I fully----
    Senator Tillis. Let me----
    Secretary Carter.--hope we can get exactly that----
    Senator Tillis. Let me go to General Dunford.
    General Dunford, are you----
    Secretary Carter.--after the election.
    Senator Tillis.--familiar----
    Secretary Carter.--in November when people----
    Senator Tillis.--with the defense----
    Secretary Carter.--return here and----
    Senator Tillis.--appropriations bill that's been 
filibustered on three different occasions?
    General Dunford. Senator, I'm not familiar with the 
details.
    Senator Tillis. Do you know, generally, from your Service 
Chiefs or anyone else, that they think it would be helpful to 
pass that bill? Have you received any feedback on--this is a 
specific measure. This isn't a concept, this is something 
that's gone through the appropriations process, it's something 
that we want to pass that gives you certainty, that's within 
the constraints of the bipartisan budget agreement.
    Chairman McCain. Senator, we do not ask the uniformed 
military for their opinion on issues that are political in 
nature.
    Senator Tillis. Fair enough.
    Let me go to something else.
    Well, it just seems odd to me that we can't get a straight 
answer on something--at least on the political side, Mr. Chair, 
I understand that--from the Secretary on something that's 
specific to helping provide the certainty that we want to 
provide the Department.
    I want to ask a--go a completely different direction. 
General Dunford, maybe I'll ask you.
    Back in January, we had Iranians fire missiles within about 
1500 yards of the Harry S. Truman. Later in the same month, we 
had patrol boats captured. I'm sure you're familiar with 
Article 2 of the Code of Conduct for Members of the Armed 
Forces. Do you think the commander who surrendered met the 
dictates of the Code of Conduct under Article 2, or where there 
other mitigating factors that prevented him from doing that?
    General Dunford. Senator, I believe that's being 
adjudicated right now in accordance with the UCMJ [Uniform Code 
of Military Trustee], so it wouldn't be appropriate for me to 
comment publicly. But, the fact that it's going through the 
UCMJ, obviously, I think, answers your question.
    Senator Tillis. Another subject. This has to do with ISIL. 
You said that we need to keep the pressure on ISIL. I know that 
that was being answered in the context of Syria, and probably 
Iraq. But, do you feel like we have adequately addressed 
putting--keeping pressure on ISIL globally when you talk about 
Libya, you talk about Egypt and other areas where they seem to 
be--and Senator Ernst talked about the Philippines--do you feel 
like that we have an adequate global strategy for keeping 
pressure on ISIL?
    General Dunford. Senator, I want to assure you that we have 
a military strategy to deal with ISIL globally. We look very 
carefully at ISIL, wherever they are. We have ongoing--and we 
don't have an opportunity often to talk about it--but, we have 
ongoing operations in West Africa. We have ongoing operations 
in Libya. We have ongoing operations in East Africa. Of course, 
Syria and Iraq, we've spoken much about that today. We have 
ongoing operations in Afghanistan. We're involved in a wide 
range of capacity-building exercises and initiatives in 
Southeast Asia. We're also working--and I've just spent this 
weekend with a large group of my counterparts to look at 
counter-ISIL. I'll have almost 50 Chiefs of Defense here in 
October to discuss this. This is, in fact, what you're 
suggesting, a transregional problem that will require a global 
response. One of the key drivers of our success will be a 
broader intelligence and information framework within which we 
can harness all of these other nations who have information 
that would be helpful to us.
    But, am I satisfied or complacent with where we are? No. Do 
I believe we have a strategic framework within which to deal 
with ISIL transregionally? Yes.
    Senator Tillis. Thank you.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Gentlemen, thank you for your public 
service.
    Would either one of you like to characterize the resurgence 
of the Taliban in Afghanistan?
    Secretary Carter. I'll start.
    It is the fighting season in Afghanistan. The Afghan 
Security Forces have done well this season. The Taliban has 
been strong. But, the Afghan Security Forces are much stronger 
this year than they were last year. They continue to gather 
strength. General Nicholson's doing a great job of helping them 
with that. We made some decisions--the President made some 
decisions which gave General Nicholson some wider scope to 
advise, assist, and so forth, the Afghan Security Forces. The 
President made a decision to adjust upward our presence there 
next year. We're continuing to go forward with the aviation and 
other enablers for the Afghan Security Forces.
    The process, which has been under some--underway some--for 
some years to try to build the Afghan Security Forces to the--
to a point where they can maintain the security of their 
country and Afghanistan doesn't become again a place from which 
terrorism arises in the United States, that is our program. 
That is what we've been trying to accomplish.
    I should turn to--because we--that progress, we owe, in 
very important measure, to General Dunford, when he was the 
commander there. He knows that very well, so let me ask him to 
join in.
    General Dunford. Senator, there is no doubt that the Afghan 
National Security Forces have had some challenges over the past 
18 months, when they've been in the lead and we have gone to a 
train-and-advise-assist mission. Our assessment is that they 
continue to control about 70 percent of the country. They've 
taken far more casualties than we're comfortable with, and they 
still have capability gaps in their Special Operations 
capability, their aviation enterprise, their intelligence, 
logistics, and, of course, broadly at the Minister of Defense, 
Minister Interior level. That's our focus right now, is to 
further develop those capabilities so we can mitigate the 
casualties that they're suffering, which is of great concern, 
as well as some of the tactical setbacks that they've had.
    But, on balance, I would call what's going on right now 
between the Afghan National Defense Security Forces and the 
Taliban as roughly a stalemate. The Taliban have not been 
successful in achieving the goals that were outlined in their 
campaign plan, which they typically make public in the spring 
of each year. On balance, the Afghan forces are holding.
    In my judgment, if we commit to continue to support the 
Afghan forces, and continue to grow their capability, they will 
be able to provide security in Afghanistan. As Secretary Carter 
said, as importantly, we'll be able to maintain an effective 
counterterrorism presence and platform in South Asia in 
conjunction with our Afghan partners.
    Senator Nelson. Thank you, gentlemen.
    Thank you.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks, to both of you, for all you do to keep us safe and 
to keep our country free. Your service and sacrifice are deeply 
appreciated.
    Late last week, there was a video that surfaced, a video 
that appeared to show the Free Syrian Army--personnel from the 
Free Syrian Army--threatening and insulting American 
servicemembers and forcing them to leave the town of al Rai, 
where they had been providing assistance to the FSA. Analysts 
who have studied the video believe the incident occurred 
because the United States is also supporting Kurdish forces in 
Syria.
    Secretary Carter, first, have you seen this video, and can 
you confirm reports that it appears to have taken place in al 
Rai?
    Secretary Carter. I've not seen the video. I've read 
reports about it. Let me ask Chairman Dunford, who has followed 
that closely, to answer you.
    General Dunford. Senator, it took place in northern Syria. 
I'm familiar with it. I didn't watch the video. I have spoken 
to our commanders about it.
    What I can assure you is that that--the group that was 
taking some action against our forces, at least verbally, was a 
very small minority of the forces we're supporting. That 
incident was policed up by our other partners. We view that to 
be an isolated incident and not reflective of the relationship 
that our forces have with the vetted Syrian opposition forces. 
In fact, I think the progress along the northern border between 
Syria and Turkey is indicative of the relationship we have, 
which is very effective.
    Senator Lee. Okay. I think that goes a certain distance 
toward answering what was my next question, which was, you 
know, What's the level of tension that you're seeing between 
some of the Sunni Arab rebel groups that we're assisting, on 
the one hand, and, on the other hand, the Kurdish groups that 
we're also supporting in Syria? Is that--is there tension 
there? Could that tension and the resentment that it engenders 
possibly threaten the security of our U.S. personnel?
    General Dunford. Senator, it is incredible tension in that 
region. I would offer to you, I think it's a testimony to the 
professionalism of our forces that are there, because they have 
actually been managing this tension for months and months. The 
fact that we've been able to continue to support the Syrian 
Democratic Forces and have them make the significant progress 
they made, and continue to support the vetted Syrian opposition 
forces while we politically manage the relationship between 
Turkey and the Syrian Democratic Forces and the United States, 
is all--it's--it is all part of a pretty complicated situation 
on the ground over there that we are managing on a day-to-day 
basis.
    I'm not dismissive of the challenges. But, frankly, to 
date, we have been able to mitigate them.
    Senator Lee. Okay. Thank you.
    Yesterday, as I'm sure you're both aware, the Senate 
debated a resolution of disapproval related to the sale of 
United States weapons to Saudi Arabia. There was some 
discussion of our broader support of Saudi Arabia's 
intervention in Yemen. This is a headline from November 2014, 
``Houthis Gain Ground Against Yemen's al Qaeda, Say They Will 
Continue Their Fight Until al Qaeda Is Defeated in Their 
Strongholds.''
    Secretary Carter, you stated, on April 8th, 2015, regarding 
new gains being made by al Qaeda in the Arab Peninsula [AQAP], 
``AQAP is a group that we're very concerned with as the United 
States, because, in addition to having other regional ambitions 
and ambitions within Yemen, we all know that AQAP has the 
ambition to strike Western targets, including the United 
States,''.
    Now, your quote was made, I believe, roughly one month 
after the U.S. supported intervention against other Houthi 
rebels, who, 4 months before, had been pushing back against 
AQAP, before that began in earnest.
    Now, I understand the complexity of the conflict in Yemen. 
I completely appreciate the fact that there are no easy answers 
when it comes to that conflict in Yemen. But, Mr. Secretary, do 
you--do AQAP and other Sunni extremist groups operating in 
Yemen still pose the greater threat to U.S. security?
    Secretary Carter. I absolutely stand by what I said. We 
continue to watch very closely AQAP and to take action where we 
need to, to protect ourselves. No question about it.
    Senator Lee. Okay. Does our support of the fight against 
the Houthis, who are also AQAP's enemy, does that threaten, 
potentially, however inadvertently, to strengthen or take the 
focus off of AQAP or ISIS?
    Secretary Carter. We've not taken our focus off of AQAP, 
no.
    Senator Lee. General Dunford, you look like you wanted to 
add something.
    General Dunford. No, I just--I fully agree with the 
Secretary on that. We are singularly focused on AQAP. We have 
the resources dedicated to AQAP that we think are appropriate.
    Senator Lee. Okay.
    I see my time's expired. Thank you, Mr. Chairman.
    Chairman McCain. Mr. Secretary, are the Houthis sponsored 
by the Iranians?
    Secretary Carter. They are certainly assisted in some 
respects by the Iranians, Chairman, yes.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Chairman, would you like me to proceed?
    Chairman McCain. Please proceed.
    Senator Donnelly. Thank you.
    Mr. Secretary, General, I want to get your input on 
something I asked each of the Service Chiefs about last week. 
In the Fiscal Year 2015 NDAA, we passed a requirement from the 
Jacob Sexton Act for every servicemember to receive a robust 
mental health assessment every year. Can you give me an update 
on where the Department is with implementation of the Sexton 
Act requirement on mental health assessments?
    Mr. Secretary? General?
    Secretary Carter. I'll need to get back to you specifically 
on the--that assessment.
    Secretary Carter. I would like to say something more 
generally about mental health and the priority----
    Senator Donnelly. That's fine.
    Secretary Carter.--if I may, Senator. I appreciate your 
interest in it.
    As it happens, it is Suicide Prevention Month this month. I 
only mention that because we do have suicide in our services, 
and we do believe that suicide is preventable. That's what the 
doctors tell us. All the specialists tell us this is something 
that is preventable. Therefore, it belongs in the family of 
things that we do to take care of our troops and ensure their 
welfare.
    We're spending more--and I can get you the numbers on that, 
but I----
    Secretary Carter. We have, over the last few years, 
increased severalfold our spending on mental health treatment 
specifically aimed at suicide, and trying to remove the stigma 
associated with seeking mental health care, and also 
emphasizing the need for other servicemembers to watch out for 
one another. Because one of the things we know is, there's 
usually somebody who spotted the behavior that's--looks--that 
can lead to suicide.
    Senator Donnelly. Right.
    Secretary Carter. Self-isolation, depression, odd things on 
social media, and so forth. We're trying to tell everybody to 
watch out for their fellow servicemembers.
    Chairman?
    General Dunford. Senator, I know each of the services has 
the tools. I don't know, in application, what the percentage is 
of the force that has received the evaluation yet, but we can 
certainly get that.
    General Dunford. That's largely a service-chief 
responsibility, not something I pay attention to on a day-to-
day basis, although, as you know, I've been--have been very 
involved in the mental health issues over the last several 
years.
    Senator Donnelly. I do. This was signed into law in 
December 2014. It's about two years now. Do you expect, General 
Dunford, to see this fully implemented in the next year?
    General Dunford. I do, Senator. I guess what I was alluding 
to is the percentage of the force that actually has it right 
now, because----
    Senator Donnelly. No, I understand that. Yeah.
    General Dunford. Right. You know, my--and I'll get back----
    Senator Donnelly. I know it takes time to ramp up. I was 
just wondering if you think 2017 is the year that this can get 
fully implemented.
    General Dunford. I think that's--based on my previous 
experience as a Service Chief, I think that's a realistic 
timeline.
    Senator Donnelly. Okay.
    Mr. Secretary?
    Secretary Carter. I absolutely concur. We'll meet that 
timeline.
    Senator Donnelly. To both of you, I wanted to talk a little 
bit about broader counterterrorism strategy. In four months, 
we're going to have a new Commander in Chief, and preventing 
the next attack on our Homeland and addressing the persistent 
conflict and instability in the Middle East is going to be one 
of the most pressing and complex challenges. How would you 
advise this concern about our counterterrorism strategy? How 
would you inform that next Commander in Chief as to how to move 
forward at this time? Obviously, there's a number of areas, 
but, looking forward, how would you talk to them about our 
counterterrorism strategy as we head into a new administration?
    Secretary Carter. I'll start and then turn it over to the 
Chairman.
    We need to continue to press on all fronts. We can't let 
up, whether it's in the counter-ISIL campaign, in Syria and 
Iraq, elsewhere, or here at home. AQAP was mentioned a moment 
ago. That's a serious one. Our capabilities--our military 
capabilities, our law enforcement capabilities, our Homeland 
security capabilities, all of this, which we've honed now in 
the years since 2001, this is not going to go away, this 
phenomenon. We'll defeat ISIL, but there will be terrorism in 
our country's future.
    Senator Donnelly. If I could ask you another question and--
--
    Secretary Carter.--it'll be part of the national security 
landscape----
    Senator Donnelly.--I apologize, I'm running out of time 
here. You may have answered this earlier. I had to come in and 
go out. But, Raqqa. When do you--or--and not, obviously, a 
single date, but how is this moving forward? Are we cutting 
off--I know closing Manbij has cut off a significant amount of 
the flow. Where do things stand in Raqqa? Are we moving forward 
on that? Do you see progress every day? What are you looking at 
as a time when Raqqa's liberated?
    Secretary Carter. I do see progress. We're working in that 
part of Syria with the Syrian Democratic Forces. They're the 
group with which we worked in--as you indicated, successfully 
in Manbij. They and others associated with them will be the 
force that envelopes and collapses ISIL's control over Raqqa.
    At the same time, I emphasized--and the Chairman already 
stressed this--we're working with the Turks also, the Turkish 
military, our good ally, very strongly, also in northwest--in 
the northwestern part--portion there. Obviously, the have 
difficulties with one another, but, in each case, we support 
them against our common objective----
    Senator Donnelly. Mr.----
    Secretary Carter.--which is counter-ISIL.
    Senator Donnelly.--Mr. Chairman, if you'd give me just 15 
seconds.
    On behalf of everyone in Indiana, the family and others, 
too, when we go to Raqqa--we lost some young men and women 
there who were killed by ISIL. We want to have them come home. 
We don't want to leave anyone behind. We would ask for your 
cooperation and assistance. My young man, Peter Kassig, Kayla 
Mueller, so many others, not to leave any names out, but all 
the parents and all the folks back home, we want them all to 
come home. We'd sure appreciate your assistance in making that 
happen.
    Secretary Carter. Noted, Senator.
    Senator Donnelly. Thank you.
    Secretary Carter. Thank you.
    Chairman McCain. Thank you, Senator, for bringing that 
issue up. They should come home.
    Senator Graham.
    Senator Graham. Well, thank you.
    Thank you both for your service to the country.
    I'm going to try to get through as much as possible here.
    Do you support the arms sale to Saudi Arabia that's being 
proposed?
    Secretary Carter. I do, yes.
    Senator Graham. Do you, General?
    General Dunford. I do, Senator.
    Senator Graham. Okay. JASTA [Justice Against Sponsors of 
Terrorism Act]. Are you concerned that we could be creating an 
environment where something like this bill could be used 
against our troops down the road?
    Secretary Carter. That is--the law--it is a law enforcement 
matter, but we are watching it closely, for the very reason----
    Senator Graham. Do you support the President's veto of----
    Secretary Carter. Well, I'm very--I'm concerned about the--
--
    Senator Graham. Okay.
    Secretary Carter. I'm concerned----
    Senator Graham. Fair enough.
    Secretary Carter.--about exactly what you're talking about.
    Senator Graham. Okay. Fair enough. We'll talk. I'll write 
you a letter and go into it more in detail. But, I understand 
your concerns.
    Do you support arming the Syrian Kurds?
    Secretary Carter. I do support working--continuing to work 
with them, yes.
    Senator Graham. I mean, no, I didn't say ``work with 
them.'' Providing them arms.
    Secretary Carter. Yeah. Well, we are--we have provided them 
with some equipment already, and providing them arms, yes. They 
are part of the--they are----
    Senator Graham. I gotcha.
    Secretary Carter.--part of the Syrian Democratic Forces.
    Senator Graham. Right.
    Secretary Carter. Now, we haven't taken any specific----
    Senator Graham. I gotcha. Well----
    Secretary Carter.--decisions about----
    Senator Graham. I gotcha.
    Secretary Carter. And--but----
    Senator Graham. Right
    Secretary Carter.--they are----
    Senator Graham. The answer is yes, you support arming the 
Kurds more----
    Secretary Carter. I support----
    Senator Graham.--in Syria.
    Secretary Carter.--whatever is required to----
    Senator Graham. Okay.
    Secretary Carter.--help them move in the direction of 
Raqqa----
    Senator Graham. Which could be providing them more arms.
    Secretary Carter. Yeah.
    Senator Graham. What about you, General Dunford?
    General Dunford. Senator, it's important--I can't answer 
this yes or no. It's important that I----
    Senator Graham. I gotcha.
    General Dunford.--say a couple of things about this.
    Number one, they're the most effective force that we have 
right now, and a force that we need to go in Raqqa. We do have 
sufficient forces----
    Senator Graham. Can I ask this?
    General Dunford.--to be able to secure and----
    Senator Graham. I----
    General Dunford.--seize Raqqa.
    Senator Graham. Yes, sir. I appreciate that.
    We--they--do they support removal of Assad?
    General Dunford. Today, that is not their stated political 
objective.
    Senator Graham. Wait a minute.
    General Dunford. They're focused----
    Senator Graham. Slow down. Whoa, whoa, whoa, whoa.
    We have two objectives--to destroy ISIL, right?--and to 
remove Assad. Is that correct? Both of you.
    General Dunford. We have a military objective to destroy 
ISIL. I do not have a military objective to----
    Senator Graham. Do you----
    General Dunford.--remove Assad.
    Senator Graham. Well, the President has an objective of----
    General Dunford. He has a political objective----
    Senator Graham. Okay.
    General Dunford.--to remove Assad.
    Senator Graham. All right. Do you agree with me, Assad is 
winning right now?
    General Dunford. I think Assad is clearly in a much 
stronger place than he was a----
    Senator Graham. All right.
    General Dunford.--year ago.
    Senator Graham. Well, thank you. You've always have been 
very honest with this committee.
    Do you agree that Obama will leave office and Assad will 
still be in power, January 2017?
    General Dunford. I don't see a path right now where Assad 
would----
    Senator Graham. Okay.
    General Dunford.--not be in office in----
    Senator Graham. Let's talk about how you change the 
political equation. Do you agree with me that the only way 
Assad's ever going to leave, if there's some military pressure 
on him that makes the threat, militarily, more real to him?
    General Dunford. I think that's a fair statement, Senator.
    Senator Graham. Okay. If the main fighting force inside of 
Syria is not signed up to take Assad out, where does that force 
come from?
    General Dunford. Senator, I can't identify that force, but 
I do want to distinguish between what you're suggesting with 
Assad and Raqqa. The reason why I support the SDF [Syrian 
Democratic Forces] is, my number-one priority is to----
    Senator Graham. Yeah, I----
    General Dunford.--stop the planning and conducting of 
external operations.
    Senator Graham. Totally----
    General Dunford. Moving forward----
    Senator Graham. Totally----
    General Dunford.--against Raqqa with the SDF----
    Senator Graham. Yes, sir.
    General Dunford.--is the way to do that.
    Senator Graham. Let's look at it this way. ISIL's Germany 
and Assad's Japan, we're focusing on Germany. Will this force, 
which is mainly Kurd, but not all--can they liberate Raqqa, and 
hold it?
    General Dunford. This force is not intended to hold Raqqa, 
no.
    Senator Graham. What is the plan to hold Raqqa?
    General Dunford. We currently have 14,000 Arabs that have 
been identified. When we----
    Senator Graham. Is that the holding force?
    General Dunford. That may consist of part of the holding 
force.
    Senator Graham. Well, do we have a plan to hold Raqqa?
    General Dunford. We have a plan. It is not resourced----
    Senator Graham. Okay.
    General Dunford.--Senator.
    Senator Graham. All right. I just want everybody to know 
where we're at in Syria. We're making gains against ISIL. The 
main force that we're using are Kurds, who can't hold Raqqa. 
The Arabs have to. You're absolutely right about that. The 
Kurdish force, which is the main center of gravity inside of 
Syria, at this moment is not interested in putting military 
pressure on Assad. Other than that, we're in a good spot.
    Now, I'm not blaming y'all. You didn't create this problem. 
Years ago, most of you recommended we help the Free Syrian Army 
when it would have mattered. We are where we are. I just want 
to make sure that the country knows what's going on in Syria is 
going to be inherited by the next President. If there's not a 
change in strategy to create a ground component that not only 
can hold Raqqa and put military pressure on Assad, this war 
never ends.
    Russia. Did they bomb this convoy--U.N. convoy?
    General Dunford. Senator, we--that hasn't been concluded, 
but my judgment would be that they did. They're certainly 
responsible.
    Senator Graham. Do you agree with me, Secretary Carter--and 
we've been friends for years, and I'm sorry it's so 
contentious--I----
    Secretary Carter. That's all right.
    Senator Graham. You're a good man. What should we do about 
Russia, who was given notice about this convoy, if they, in 
fact, bombed a U.N. convoy delivering humanitarian aid? What 
should we do about that?
    Secretary Carter. Well, I--if--let me put it even a little 
more harshly. The Chairman said this earlier. The Russians are 
responsible for this strike, whether they conducted it or not, 
because----
    Senator Graham. I totally agree.
    Secretary Carter.--they have taken responsibility for the 
conduct of the Syrians by associating themselves with the 
Syrian regime. What they're supposed to do, and what Secretary 
Kerry has been indefatigably pursuing diplomatically, is to get 
a true cessation of hostilities and get Assad to move aside in 
a political transition.
    Senator Graham. They're not doing their part.
    Secretary Carter. I'm--that is what Secretary Kerry is 
trying to achieve. Is that difficult? Absolutely. Does it look, 
in the last few days, like that's the direction it's headed? 
No. He's said as much. But, that's what he's trying to 
accomplish.
    Senator Graham. Do you think the Russians are being 
helpful? My time is up. Have they been more--do you think the 
Russians bombed this convoy? Most likely?
    General Dunford. I do, Senator.
    Senator Graham. Last question. Is there a Plan B, in terms 
of--if diplomacy fails, a Plan B for Syria that has a military 
component?
    General Dunford. Senator, we have----
    Senator Graham. Regarding Assad.
    General Dunford.--we have done, and will continue to do, a 
wide range of planning. Should the President change the policy 
objectives, we'll be prepared to support those.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. It is appreciated 
by all of us.
    Secretary Carter, you stated that the United States will 
not ignore attempts to interfere with our democratic processes, 
which I believe is in reference to the recent cyberattacks on 
political parties, candidates, and election systems. By that, 
do you mean that costs will be imposed on those responsible for 
these attacks?
    Secretary Carter. It's--sadly, the reference is a very 
broad one. I made it in Europe, and was speaking to that 
audience, very broadly, to include the issue you stated, but 
which is a concern they all have, and we have, at NATO. The 
broader category is called hybrid warfare. It ranges from 
little green men to people interfering in democratic process. 
That's a concern that I was discussing with allies when I was 
over there.
    Senator Fischer. But, when----
    Secretary Carter. It's part of the way NATO's going to have 
to adapt to the world as it really is. Yes, we're going to have 
to defend ourselves against----
    Senator Fischer. So costs----
    Secretary Carter.--that kind of thing.
    Senator Fischer.--would be imposed for cyberattack.
    Secretary Carter. That is--like any other attack.
    Senator Fischer. Do you think that--with regards to cyber, 
that this should be done in a public way so that the penalties 
are clearly visible and--to other potential attackers in the 
future?
    Secretary Carter. Well, I certainly think that we need to 
defend ourselves and then take action against perpetrators when 
we identify them, and that in--is in appropriate ways. I simply 
mean that because the perpetrators are--of cyberattacks range 
from--and cyberintrusions--range from nation-states to cutouts 
to hackers to criminal gangs.
    Senator Fischer. Correct.
    Secretary Carter. It's quite a variety. It's why our 
highest priority in cyber, and including in our Cyber Command, 
is defense of our own networks.
    Senator Fischer. Right.
    Secretary Carter. It's something----
    Senator Fischer. It has been widely reported that Russian 
hackers are responsible for the penetration that we've seen at 
the Democratic National Committee [DNC], those computer 
systems, when we look at leaks of the DNC emails and documents. 
I guess the questions continue to persist regarding the 
strength of that connection between the hackers and Russian 
officials. It is generally accepted that the affiliation 
exists.
    If this is true, that there is this connection out there, 
what is clear is that it's a--to me, another very public 
instance, this time using cyber, where Russia continues their 
aggression towards this country and towards our interests. When 
we have an adversary who so brazenly strikes at the heart of 
our democratic process, I think that indicates how low they 
believe the cost of that behavior is going to be. In other 
words, I think we've possibly lost the deterrence factor when 
it comes to cyberattacks.
    Would you agree with that?
    Secretary Carter. We can't lose deterrence effect, ever. 
With respect to Russia, it is--one of the reason--one of the 
emphases, stresses we made in our budget--and, by the way, this 
is one of the reasons why we would appreciate having our budget 
passed, as is, to get back to an earlier question--is because 
it prioritize something we haven't had to do, Senator, as 
you're stressing, for a quarter----
    Senator Fischer. But, do you----
    Secretary Carter.--of a century, which is--we--it used to 
be--we haven't had, as a major component of our defense 
strategy, countering the possibility of Russian aggression.
    Senator Fischer. But, now we do.
    Secretary Carter. That's why we're making----
    Senator Fischer. And----
    Secretary Carter.--investments. It ranges from cyber to the 
European Reassurance Initiative, which is one of the things 
that we hope doesn't get affected in----
    Senator Fischer. Am I----
    Secretary Carter.--budget----
    Senator Fischer. I apologize for interrupting you. The 
Chairman's strict on time.
    But, dealing with--dealing with cyber, when we look at 
cyber, do you have plans that you have given to this 
administration or are plans available to provide the 
administration with flexibility in dealing with cyber? 
Specifically, how do we address such attacks, whether they are 
from a nation-state, whether they are from organized crime, or 
whether they are from individuals? Are there plans out there on 
how these attacks are going to be addressed, whether through 
deterrence or actual actions? Are those plans updated as we 
continue to see the expansion of cyberattacks on this country?
    Secretary Carter. That's a very good question. We're just 
discussing here, because there are many aspects to the answer 
to this, but, yes, we have a lot of cyber capabilities that we 
are building, developing in all the services and at Cyber 
Command.
    More generally, for the Russians, let me ask the Chairman 
to add something.
    General Dunford. Senator, for exactly the reason you're 
raising, we're in the process of rewriting, at the Secretary's 
direction, a more broad framework for dealing with Russia in 
contingencies associated with Russia. It's also the reason why 
our national military strategy now will be a classified 
document, because what we are trying to do is provide a 
strategic framework to deal with the full range of behavior 
that we may see from a state like Russia, China, North Korea, 
and Iran. In some cases, a cyberattack may not beget a cyber 
response. We want to make sure our national command authority 
has a full range of options to deal with something that has 
been determined, in fact, a violation of our sovereignty and an 
attack in cyberspace.
    There's really two things. One, the strategic framework 
working on, and we're also working on a full range of tools--
cyber tools--so that we have both the ability to protect our 
own network and to take the fight to the enemy in cyberspace, 
as required, our offensive cyber capability.
    I would tell you that the issue that you're outlining 
really is being addressed in both a strategic framework as well 
as physical tools that we're developing. But, again, it's not 
just focused on cyber, it's focused on providing the Secretary 
and the President a full range of options with which to respond 
in the event of an attack--again, whether it be cyber or 
anything else.
    Senator Fischer. I thank you for that. I think the 
deterrence aspect of cyber response is very, very important, 
that we keep that, and also that public responses make an 
impression, as well. Thank you, sir.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, last week, as you know, we had the Service 
Chiefs testify. I began my comments commending you, Mr. 
Secretary, and the President for the selection of such men and 
women of high caliber, high integrity, leading our military, 
including the current Chairman. One of the reasons is that they 
typically give this committee and the American people honest 
testimony.
    An example of that was last week. I asked what the risk 
level was our Nation faced in being able to conduct a full 
spectrum of operations, including one conventional conflict. 
Each Service Chief said that this would entail, ``high military 
risk'' for their service. Each Service Chief. Which I found 
remarkable. Distressing.
    General Dunford, do you know if that's ever happened 
before, where all four Service Chiefs have stated that we 
currently exist at a state of high military risk for our 
forces? General Milley described what that meant, which is a 
lot of death for our military if they have to go into this kind 
of spectrum of ops. Is this unprecedented?
    General Dunford. Senator, I don't know if it's 
unprecedented, but, over the last several years, I think all 
the chiefs, to include me when I was the Commandant, and the 
chiefs before I assumed that responsibility, have been 
articulating the risk associated with the readiness challenges 
that we've had, really, now that date back as far as 2005.
    Senator Sullivan. Do you--you agree then, I assume, with 
the assessment of each Service Chief, that we face high 
military risk, in terms of a----
    General Dunford. Senator----
    Senator Sullivan.--spectrum of ops that includes----
    General Dunford. Senator, I don't agree that we have--I 
agree that each of the services has high risk, and they've 
articulated it.
    The one thing I think I want to--I would like to say and 
then answer your question is, we, today, can defend the 
Homeland. We, today, can meet our alliance responsibilities. 
We, today, have a competitive advantage over any of those four-
plus-one we spoke about. But, I fully associate myself with the 
chiefs when they talk about the time and the casualties that we 
would take as a result of readiness shortfalls that we have 
today.
    Senator Sullivan. You think high military risk is 
acceptable?
    General Dunford. I did not say that, Senator, for one 
minute.
    Senator Sullivan. So----
    General Dunford. What I want to do is, I want to 
communicate, to those who are listening, both in the force and 
our potential adversaries, to make it clear that my judgment is 
that the U.S. military, today, can, in fact, dominate any enemy 
in a conflict. I----
    Senator Sullivan. Mr. Secretary, the four Service Chiefs 
talked about high military risk. Again, I thought that was 
remarkable. I don't know if that's ever happened, Mr. Chairman, 
before this committee before. But, it begs the question that 
we've been talking about in this hearing today, is how--if 
that's what they're saying, how can we not--how can the 
President not support increased military spending? Right now, 
there's a new Gallup poll out, saying, ``First time since 2002, 
the American people support more military spending.'' If the 
Service Chiefs are each saying we face high military risk, how 
can we not be supportive of additional military spending? I 
just don't--I just don't understand that at all.
    Secretary Carter. Well, first of all, let me thank you and 
associate myself with your commendation of the senior 
leadership of our Department. We're blessed as a country to 
have such people serving us. They told it to you straight. I, 
too, associate myself with what they said.
    There is risk in the force. The risk----
    Senator Sullivan. It's actually high risk.
    Secretary Carter. Let me just tell--let me unpack that, 
because they each did that for you. There are--it's different 
in each of the services, but there are a few common 
denominators.
    One has been budget instability, which is why I am and will 
continue to hew to the idea that we need budget stability. That 
means everybody coming together. Not this idea and that idea 
and that idea, but one that everybody can agree to. We haven't 
seen that yet, and it's the end of the fiscal year.
    Senator Sullivan. Mr. Secretary, just to--just real----
    Secretary Carter. Eight--let me finish--eight----
    Senator Sullivan.--a quick point on that----
    Secretary Carter.--eight times in a----
    Senator Sullivan.--just a quick point on that----
    Secretary Carter.--eight times in a row. That's going to 
have an effect----
    Senator Sullivan. You've had the minority leader----
    Secretary Carter.--on risk.
    Senator Sullivan.--of the United States Senate filibuster 
the defense appropriations bills, not three times, as my 
colleagues have said--six times in the last year and a half 
year. So----
    Secretary Carter. Let me----
    Senator Sullivan.--we're trying to make that happen.
    Secretary Carter. Thank you. Let----
    Senator Sullivan. We're all trying to make that happen.
    Secretary Carter. Thanks. Let me go on. There's another 
thing that's so substantive of importance, other than the 
budget instability the last few years. That is the services--
and, I think General--I think you mentioned General Milley--he, 
in particular--and I want to associate myself with this--is 
trying to move to full spectrum, exactly the words you used, 
from an Army that we dedicated almost wholly, in terms of force 
structure, to the COIN [counter insurgency] fights that we had 
to conduct in Iraq and Syria. The Army's been resourcing them 
heavily. Now he is trying to get his forces trained for full-
spectrum combat.
    As--I think, as he said to you, that's a matter of budget 
stability, yes, but it's also going to--it also is a matter of 
time. He's working on it. That's his highest priority. I agree 
with him, for the U.S. Army. He's trying to get all his Brigade 
Combat Teams to go through the Nellis, the CTC at Nellis. 
That's going to take some time.
    If we go to the Marine Corps--and I know General Neller 
spoke to you about that--their highest readiness priority, 
which I also want to foot-stomp, as I'm sure he did, is in 
their aviation. There are a lot of different dimensions to 
that. One is the recap of their aviation, both rotary wing and 
with the F-35 joint strike fighter coming down the line.
    With the Navy, it's mostly a matter of ship maintenance, 
depot maintenance. Admiral Richardson's working on that.
    In the Air Force, for General Goldfein, the Air Force 
continues to have readiness challenges which are associated 
partly with budget instability, but mostly with the high 
OPTEMPO of the Air Force. We're working the United States Air 
Force really hard in that air campaign over in Iraq and Syria. 
It's essential. It's important. But, it means that air wings 
are constantly rotated in and out, and, when they come back, 
they have to go back in for readiness training.
    In the budget we submitted for fiscal year 2017--and we 
said this--readiness and resourcing are--the readiness plans of 
each of the services was our highest priority. There's no 
question about it, there's risk there. It has accumulated over 
the years. We need stability and we need priority in order to 
work through it. We need stability from you. We'll give it 
priority. I totally support the chiefs in what they told you 
last week.
    Chairman McCain. Senator Cruz in just a second.
    Mr. Secretary, the impression that was given by the Service 
Chiefs was: it comes down to readiness, training, spare parts, 
all the things that go when you have budget cutbacks. We've 
seen the movie before. As you pointed out, each individual 
service has some specific needs, it all comes back to funding 
for operational readiness and training, which is always the 
first to go. That's--obviously, when we have United States 
pilots flying less hours per month than Chinese or Russian 
pilots, there's something fundamentally wrong. I know you agree 
with that.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Secretary Carter, General Dunford, thank you for being here 
today. Thank you for your testimony on the critical national 
security threats facing our country.
    The last seven years, we've had an administration that has, 
in many ways, neutered itself and ignored one transgression 
after another from our enemies. As a result, our adversaries 
are continuing to increase their belligerence.
    Iran has received no meaningful repercussions for illegally 
seizing American sailors and endeavoring to humiliate them, and 
has since increased their aggressive tactics and harassment of 
United States Navy vessels operating in the Arabian Gulf.
    For months, Russia has been ramping up the pressure on our 
military, previously flying within 30 feet of a United States 
Navy warship, and most recently flying within 10 feet of a U.S. 
Navy surveillance aircraft. Instead of treating these as 
escalatory acts from an adversary, Secretary Kerry rewarded 
Russia by agreeing to share intelligence in Syria.
    These examples don't even touch on Iranian and North Korean 
efforts to develop their ICBM programs, nor the expansion of 
ISIS beyond the Middle East.
    Sadly, this week's terror attacks in New York, Minnesota, 
and New Jersey once again demonstrated that radical Islamic 
terrorism continues to threaten our safety. By any reasonable 
estimate, we can conclude that our national security interests 
are at serious risk. I want to thank both of you for your 
service during such a pivotal and dangerous time in our 
Nation's history, and for your leadership of our men and women 
in uniform.
    I want to ask you, starting with Iran, What is and what 
should be our response to escalating Iranian belligerence and 
threats?
    Secretary Carter. Well, first of all, thank you very much, 
Senator, for that. You hit them all, the five parts of our 
military strategy that are reflected in what we're trying to 
get in our budget, namely counter-ISIL, Iran, North Korea, 
Russia, and China. All of those are--present very different, 
but serious, challenges that have a serious military dimension 
to them.
    With respect to Iran, notwithstanding the nuclear deal, 
which was good, in the sense that it removed--if implemented 
faithfully, which it is being, so far--removed nuclear weapons 
from our concerns about Iran. It did nothing to alleviate other 
concerns we have--their malign influence, their support for 
terrorism, malign influence in the region. This is why, to give 
you one answer to your question--and I'll ask the Chairman to 
pitch in--why we have a strong, ready presence in the Gulf. 
Gets back to our readiness discussion. It's not just about 
ISIL. We have a big OPTEMPO to defeat ISIL. We're going to do 
that. Takes a lot of force structure, but also readiness 
consumed doing that, consumed in a good thing because we're 
defeating ISIL. But, we are also standing strong in the Gulf. 
That means defending our friends and allies there, defending 
our interests, and countering Iranian malign influence. It is 
an enduring commitment of ours.
    Let me ask the Chairman to join in.
    General Dunford. Senator, I think there's--from a military 
perspective, there's three things that we need to do. Number 
one is, we need to make sure that the inventory of the joint 
force can deal with Iranian challenges that do range from 
ballistic missile defense to the malign influence that you 
spoke about earlier. Number two, we need to make sure, in our 
day-to-day operations, we make it clear that we're going to 
sail, fly, and operate wherever international law allows us to, 
and we'll continue to do that. Number three, as the Secretary 
said, we need to have a robust presence in the region that 
makes it very clear that we have the capability to deter and 
respond to Iranian aggression. Those would be the three 
elements that we need to have for--from a military perspective, 
to give our President whatever options he may need to have.
    Senator Cruz. General, in your judgment, was flying $1.7 
billion in unmarked cash to give to the Iranian Government 
incentivizing positive behavior from Iran?
    General Dunford. Senator, I'm not trying to be evasive, but 
I don't know the details of that arrangement. It really was a 
political decision that was made to provide that money. I don't 
think it's appropriate that I comment on that.
    Senator Cruz. Well, let me ask it this way. I spoke, 
yesterday, to Pastor Saeed Abedini, who was one of the American 
hostages held in Iran. Pastor Saeed described how, when he was 
preparing to fly out, that his captors told him they were going 
to wait until the planeload of cash landed. If the planeload of 
cash didn't land, he wasn't flying out. When $400 million 
touched down in cash, they allowed him to fly out.
    Now, under any ordinary use of language, that would seem to 
be payment of a ransom. Does it concern you if the United 
States is now in the business of paying ransom to terrorist 
governments for releasing Americans, the incentive that we face 
for future terrorists and future terrorist governments to 
attempt to kidnap and hold for ransom Americans?
    Secretary Carter. It--Senator, let me just jump in here for 
the Chairman.
    We weren't involved in this. This was the settlement of a 
legal case. It's longstanding. I don't know all the details of 
it. The Chairman and I were not involved in that. It is a 
decision that was taken by the law enforcement and the 
diplomatic----
    Senator Cruz. Mr. Secretary, I appreciate----
    Secretary Carter.--community. I think we have to refer 
you----
    Senator Cruz.--that, but----
    Secretary Carter.--refer you there.
    Senator Cruz.--I would like an answer from General Dunford 
to the military question, whether, in his professional military 
judgment, it concerns him, the precedent of paying ransom for 
Americans, to terrorist governments.
    General Dunford. Senator, without commenting on whether or 
not that was ransom, again, because I don't know the details, 
our policy in the past is that we don't pay ransom for 
hostages. I think that's hold us--held us in good stead in the 
past. But, again, I don't know the arrangements that were made 
in this particular case, and I can't make a judgment as to 
whether or not that's what we did. All I've done is read the 
open-source reporting on that.
    Senator Cruz. Thank you.
    Chairman McCain. Senator Wicker, if you would give Senator 
Sullivan a chance to ask one more question.
    Senator Wicker. Indeed.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, I just wanted to turn to the issue of the South 
China Sea. The international ruling in the Hague put China on 
the defensive. Mr. Secretary, as you know, a number of us at 
the Shangri-La Dialogue have been supportive of your efforts. I 
certainly want to give the administration credit for sending 
two carrier battle groups to the region together recently. But, 
I think a number of us remain concerned about the likelihood of 
reclamation at the Scarborough Shoal and the ongoing--and it's 
definitely ongoing, from all reports--militarization at Fiery 
Cross, Subi, and Mischief Reef, which was also declared as not, 
you know, being within China's territorial realm. What's the 
strategy to deter future Chinese reclamation activities in the 
South China Sea, especially at Scarborough Shoal? Equally, if 
not more important, what's the plan to respond to ongoing 
militarization of the land that they've already claimed?
    Secretary Carter. Thanks, Senator. I'll start and then--
Chairman can join in.
    I'm actually glad you raised the issue. We haven't talked 
much about the Asia-Pacific, but you know a great deal about 
it, and I appreciate that Chairman McCain always leads a 
delegation out there to Shangri-La, because it shows the 
persistence of the American presence in that region and the 
centrality of our continued presence there.
    Now, the--what we have stood for there now for many, many 
years, and continue to stand for, and the reason why so many 
countries there associate their--themselves with us, and 
increasingly so, is, we stand for principle. One of those 
principles is the rule of law. The decision did come down, and 
our--we didn't take the position the disputes themselves--we do 
support the decision of the court.
    China's rejection of that is having the effect--you asked, 
sort of, What's the reaction to all this?--the effect of 
causing countries there to express their concern by wanting to 
do more with us. We like building the security network there. 
We're not trying to do that against China, but, if China 
chooses to exclude itself in this way, this is the development 
that occurs. We're working more with each and every country 
there. We find them increasingly coming to us. We are 
continuing to operate there, as we always have and always will.
    Last, I guess I should say, in terms of investments, in 
addition to putting a lot of our force structure there, which 
you're very familiar with, and I'm grateful that your State 
hosts some of that, including some of our most modern stuff, 
we're making a number of qualitative investments in--and that's 
one of the things that's reflected in our budget, and one 
reason why we hope that, in addition to funding our budget, 
we--nobody shuffles around in our budget stuff that we--new 
stuff that is oriented toward the high end for old force 
structure. We've seen a tendency towards that.
    We're reacting in a number of ways, in terms of our own 
activities and investments. But, the most important thing 
that's going on is in the region, itself.
    Let me ask the Chairman to add.
    General Dunford. Senator, I think a response to the 
challenge you identified clearly is going to require diplomatic 
action, economic action, and military action. I'll talk to the 
military piece of this, which, right now, is actually, I don't 
think, the most prominent piece in dealing with the challenge 
of China. But, I think, from my perspective, we need to do a 
couple of things:
    Number one, militarily, we need to recognize the 
implications of the militarization of the South China Sea, and 
our plans need to be adjusted accordingly.
    Number two, we need to continue to fly, sail, and operate 
wherever international law allows, and make it very clear that 
we're doing that on a routine basis
    Number three, we need to make sure that our posture in the 
Pacific assures our allies and deters any potential aggression 
by China, and makes it absolutely clear that we have the 
wherewithal, both within the alliance as well as United States 
capabilities, to do what must be done, vis-a-vis China.
    I think if we provide the President with clear options, I 
think we will have done our job. But, primarily, right now, I 
think the President is--has some diplomatic and economic areas 
where--also will contribute to moderating China's behavior.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Let me say that I hold both of these witnesses in high 
regard. I appreciate their distinguished career of service.
    I do have a statement for Secretary Carter, followed by a 
question.
    Mr. Secretary, in his farewell speech to the U.N. General 
Assembly on Tuesday, President Obama stated, ``There is no 
ultimate military victory to be won in Syria.'' As a member of 
this committee for many years, I find this assertion to be 
astounding. Our Chairman and I, along with other members of 
this committee, have made repeated admonitions over the years 
that decisive action needs to be taken against President Assad.
    In August 2012, the President delivered his now infamous 
red-line statement in which he said, ``We have been very clear 
to the Assad regime that a red line for us is, we start seeing 
a whole bunch of chemical weapons moving around or being 
utilized. That would change my calculus. That would change my 
equation.''
    Now, Mr. Secretary, a year later, disregarding the counsel 
of your predecessor, Secretary Hagel, the President canceled 
airstrikes against Assad, who had unleashed sarin gas on his 
own people outside of Damascus and continued his gruesome use 
of barrel bombs on civilians. This dramatic demonstration of 
weakness by the President left a vacuum in the region that was 
quickly seized by President Putin. We are now faced with an 
enduring quagmire.
    Sadly, President Obama's stunning remark that there is no 
ultimate military victory belies the reality of the Obama 
foreign policy that has ignored and belittled the advice of our 
leaders in the Department of Defense.
    To add insult to injury, the President issued a memo 
yesterday ordering you and General Dunford to consider climate 
change during our military planning process. Last weekend, we 
dealt with a multiple--with multiple terrorist attacks on our 
shores. Last night, we heard that ISIL may have launched a 
chemical attack on our troops. It boggles the mind that the 
President would issue such an order during this critical time 
in our history. Four-hundred thousand civilian deaths in Syria. 
I wonder what the carbon footprint of these barrel bombs would 
have been that we could have prevented, had we acted 
decisively.
    Mr. Secretary, I have the highest regard for you as an 
individual, as I've already stated, and I thank you for your 
service. I just wish you had been given the appropriate 
authority by the President to turn this administration's 
misguided policy around.
    Now, I was here when this hearing began, at 9:30 a.m. 
You've all been very patient with your answers. I know you've 
discussed this already, Mr. Secretary, but it--at this point, 
toward the end of this hearing, is there anything else you'd 
like to add in response to what I've said?
    It seems the President is now--is more resolved now than 
ever to forget his 2012 promises. What's your recommendation as 
to the future of the Assad regime? What about the President's--
what about your statement during confirmation that, as the 
President has said, Assad has lost his legitimacy and cannot be 
a part of the long-term future of Syria? Is that statement 
still operative?
    Secretary Carter. I think it is. I--and I'll just give a 
general answer to your general question. You're right, it was 
discussed earlier. Even though we are going to be, I'm 
confident, militarily successful against ISIL, insofar as the 
Syrian civil war is concerned, the violence can't end there 
until there's a political transition from Assad to a government 
that is decent and that can govern the Syrian people and put 
that tragically broken country back together. That doesn't look 
in sight now. It was we talked earlier about Secretary Kerry's 
trying to make arrangements to promote, but it is--that's 
necessary for the resolution of what is, as you say, a very 
tragic situation.
    Let me see if the Chairman wants to add anything.
    Senator Wicker. Well, let me just ask this, if you don't 
mind, Secretary Carter. It would help if the barrel bombing 
ended. I spoke to a Democratic colleague of mine today. I've 
been calling for a no-fly zone to stop the barrel bombing, and 
I asked this colleague of mine on the other side of the aisle 
if he would support that. He said, ``Yes.'' He said, ``I want 
to call it something else, rather than a no-fly zone,'' but 
that this particular Senator--it is a fact that this particular 
Senator has now changed his position and would like us to take 
action to present--to prevent the barrel bombing.
    What is your position about that? Wouldn't it help if we 
took decisive action and ended this carnage?
    Secretary Carter. I don't know the specific proposal which 
you're discussing with your colleague. I'll make one comment 
and see if the Chairman wants to add anything.
    Senator Wicker. I think he was talking about a no-fly 
zone----
    Secretary Carter. Well, okay.
    Senator Wicker.--but described in more palatable terms.
    Secretary Carter. There are--a number of different 
proposals have been made, but I--the one that I think it--the 
focus on right now is the one Secretary Kerry's trying to 
promote, namely a no-fly zone for the Russians and the Syrians 
who are attacking the Syrian people. If they're talking about a 
no-fly zone for American aircraft fighting ISIL, needless to 
say, that--that's not going to get any enthusiasm, get strong 
opposition from me.
    Senator Wicker. I'm speaking about a----
    Secretary Carter. But, I think that's what a--but--it's not 
called that, but Secretary Kerry is trying to get a standdown 
of the Syrian and Russian air force. If he's successful, that 
would be a good thing.
    Let me ask the Chairman if he has anything to add.
    General Dunford. Senator, the only thing I'd say is, you 
know, as the situation on the ground changes, I think I have a 
responsibility--we, the joint force, has a responsibility--to 
make sure the President has a full range of options. We have 
discussed that issue in the past under certain conditions. The 
conditions on the ground will change, and we'll continue to 
look at those options and make sure they're available to the 
President.
    Senator Wicker. What about the option of controlling the 
airspace so that barrel bombs cannot be dropped?
    General Dunford. All options----
    Senator Wicker. What do you think of that option, sir?
    General Dunford. Right now, Senator, for us to control all 
of the airspace in Syria, it would require us to go to war 
against Syria and Russia. That's a pretty fundamental decision 
that certainly I'm not going to make.
    Chairman McCain. To impose a no-fly zone----
    General Dunford. Chairman, could I, for a second, say----
    Chairman McCain. No. No.
    General Dunford. That's not what I said, Chairman.
    Chairman McCain. Go ahead.
    Senator Wicker. Well, yeah, I do think that's----
    General Dunford. What Senator--what the Senator asked me 
was ``to control all of the airspace''----
    Chairman McCain. No, what he asked was, Should we have a 
no-fly zone so we can protect these people from being 
slaughtered? What's what he's talking about.
    General Dunford. I answered that first.
    Chairman McCain. That's what we're all talking about.
    Senator Wicker. That would not require going to war, full-
scale, would it?
    General Dunford. Not necessarily, Senator. I--I'm sorry, 
but I tried to answer the first question first, and then I was 
responding to the second part of your question.
    But, that--I did not mean to say that imposing a no-fly 
zone would require us to go to war. That's not the question I 
was answering.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you both for testifying today.
    I want to continue some of the issues that Senator Fischer 
brought up about cyber. In the past year, we've learned, 
obviously, about a number of cyberattacks, whether it was 
against the DNC or against NSA [National Security Agency] or 
the Office of Personnel Management. These attacks have 
demonstrated the integrated nature of our networks and how 
our--how targeting one system can have a broader effect. 
Whether it's critical infrastructure, private companies, or 
political party networks, we need to have a much more 
integrated response to these attacks.
    How can we create an integrated framework for response to 
hacks and cyberattacks? What is DOD's role? Are the processes 
and authorities now in place for DOD to respond in a systemic 
way rather than ad hoc to each attack?
    Secretary Carter. I'll start.
    You're--you used the phrase, Senator--and thank you--that I 
would use, as well, which is ``an integrated approach,'' 
because you don't necessarily know, at the beginning, who the 
perpetrator is. There's this whole spectrum of possible and 
actual perpetrators, ranging from criminals and kids right up 
to nation-states. You're right, it's--it is--the Defense 
Department shares this responsibility with law enforcement and 
Homeland Security and intelligence. But, we aim to play a big 
role--a big supporting role.
    Our first job is the defense of our own networks. That's 
our highest priority within the DOD cyber system, because we 
depend so abjectly upon those systems for the performance of 
our military, overall. All our soldiers, sailors, airmen, and 
marines, ships, planes, and tanks, and so forth are networked 
together. In order to function as excellently as they do, those 
networks need to be secure. That's our first job.
    We also do develop cyber offense. We've acknowledged that 
in the last year. And----
    Senator Gillibrand. Yeah, and I really appreciate the work 
you're doing on innovation. I think the Defense Innovation Unit 
Experimental that you started in Silicon Valley and now have 
expanded to both Boston and Austin is really exciting. I 
actually would invite you to look at New York for your next 
site, because we have so many venture-capital high-tech 
developing there. It's becoming sort of this new Silicon Alley.
    Secretary Carter. I appreciate that. I appreciate the 
committee's support for DIUX. It's one of many things we're 
trying to do to continue to connect our Defense Department to 
the most innovative parts of American society, get good people 
to want to join us or our defense companies--good scientists 
and engineers--and let them feel the meaning of contributing to 
national defense. We've got to work extra hard at that, simply 
because, generationally, a lot of young people haven't served--
they may be cyber experts, they haven't served, they've never 
worked with or for our Department before. We're really working 
hard to draw them in.
    I just opened up the DIUX branch in Austin, and there'll be 
more. I appreciate----
    Senator Gillibrand. I'd be grateful----
    Secretary Carter.--what you said about New York.
    Senator Gillibrand.--if there's any further authorities or 
resources you need to continue to develop the strongest 
cyberforce we possibly can, if you could give that to me so I 
can put it in the NDAA. Because I think this effort you're 
doing needs thoughtful and continual investment of thinking and 
resources. So----
    Secretary Carter. Thank you. We'll give----
    Senator Gillibrand.--things that you need further, you----
    Secretary Carter.--we'll give you more. I should say, it's 
strongly represented in our fiscal year 2017 budget, because--
--
    Senator Gillibrand. Yeah.
    Secretary Carter.--because we gave it a lot of priority. 
The reason why it was possible to give it priority is not just 
because of its importance, but because--it's not just a matter 
of money, it's--as you indicated, it's a matter of good people.
    Senator Gillibrand. Right.
    Secretary Carter. They're the hard thing to find in cyber. 
And----
    Senator Gillibrand. Lastly, I just want to continue on 
Senator McCaskill's line of questioning. We've been really 
looking at this issue of retaliation very hard. We've made it a 
crime for several years. But, the 62 percent of retaliation 
being reported over and over again is very challenging. Those 
being reported, their view is that it's from above them in the 
chain of command, more often than not. That's just what we're 
working with. It's a perception, not necessarily a defined, 
enumerated crime. I fully understand that. But, have you done 
any prosecutions of retaliation this year? Have you actually 
taken any cases to court-martial yet?
    Secretary Carter. I can't answer that question. I believe 
the answer to that is yes. I'll get back to you on that, 
Senator.
    Senator Gillibrand. Yeah.
    Secretary Carter. But, can I just thank you for--I think 
you, among others on this committee, were the ones who really 
tuned us in to retaliation as another dimension of the sexual 
assault problem we needed to combat. We are trying to--you're 
right, sometimes it's higher up, but sometimes it is laterally, 
also.
    Senator Gillibrand. Yeah. All of those reasons, whether 
it's lateral or higher up, is one of the reasons why survivors 
don't report. It's one of their enumerated reasons. They feel 
it will end their career. We still only have two out of ten 
survivors reporting. We're not where we need to be. It's not 
good enough. And----
    Secretary Carter. Right.
    Senator Gillibrand.--I'm grateful for your continued 
efforts.
    Secretary Carter. Thank you. Likewise.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. I can assure the Senator from New York, as 
long as I'm Chairman of this committee, we will not take away 
the responsibility of the commanding officer, the chain of 
command, as hard as she may try to remove that.
    Senator King, did you have anything else?
    Senator King. Just one quick question, to follow up on this 
line of questioning about cyber.
    Gentlemen, do you believe that we should separate--or, I'm 
sorry--that Cyber Command should be elevated to a independent 
combatant command?
    Secretary Carter. Senator, that's not a decision we've 
taken yet, but I think that's going to be a natural evolution 
for us and is going to be part of the natural evolution of our 
cyberforce in giving this new priority. We are looking at the 
various managerial aspects of cyber. Chairman and I discuss 
that frequently. We discuss it with our colleagues around 
Washington and the intelligence community with which we share a 
lot of it--of responsibility.
    I mean, ultimately, something that involves combatant 
commanders would be a presidential decision. But, this 
committee will have a big role in that, as well. We look 
forward to working with you as we make that evolution. But----
    Senator King. I----
    Secretary Carter.--we're thinking about it, absolutely.
    Senator King. I just hope the evolution takes a little less 
time than the evolution of human beings.
    [Laughter.]
    Secretary Carter. I think it will.
    Chairman McCain. Mr. Secretary, it's been a long morning 
for you and General Dunford, but I would just like to ask one 
additional question.
    This news of this chemical--what appears to be a chemical 
weapon yesterday, can you tell us what you know about that and 
what--any conclusions you may have reached on that?
    Secretary Carter. Absolutely, we can.
    Go ahead, Chairman.
    General Dunford. Chairman, it's a--we assess it to be a 
sulfur mustard blister agent. We don't assess that ISIL has 
the--has a very rudimentary capability to deliver that. It went 
on one of our bases. We have effective detection equipment 
there. We have effective protection equipment. We can also 
decontaminate. But--and we also are tracking a number of 
targets. One, we struck last week, which was a pharmaceutical 
plant, which is part of the chemical warfare network that ISIL 
has. We have been tracking this. We've had a number of 
strikes--I think 30 over the past year--against emerging 
chemical capability. In this latest strike, again, we assess 
was sulfur mustard. None of our folks were injured by this 
particular incident. It wasn't particularly effective, but it 
was a concerning development.
    Chairman McCain. It is concerning, because we have known 
that they had some kind of chemical weapons facility there in 
Raqqa. As you say, we have struck it, but it is concerning, 
particularly on those people who don't have the protective 
equipment, as well.
    I thank the witnesses. I know it's been a long morning. I 
appreciate their being here. We will look forward to, perhaps 
in the lameduck session, trying to get them the authorization 
that they require in order to carry out their responsibilities. 
I am not proud of the fact that the Congress of the United 
States has not carried out ours.
    I thank the witnesses.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
